<html>
<title> - NATIONAL PARKS BACKLOG</title>
<body><pre>[Senate Hearing 108-94]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 108-94
 
                         NATIONAL PARKS BACKLOG
=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

         TO CONDUCT OVERSIGHT OF THE MAINTENANCE BACKLOG, LAND 
ACQUISITION BACKLOG, AND DEFICIT IN PERSONNEL WITHIN THE NATIONAL PARK 
SYSTEM, INCLUDING THE IMPACT OF NEW PARK UNIT DESIGNATIONS ON RESOLVING 
                         EACH OF THESE CONCERNS

                               __________

                              JULY 8, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources




                       U. S. GOVERNMENT PRINTING OFFICE
89-076                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel





                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     3
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     2
Cornelssen, Curtis E., Director, Hospitality Leisure Group, 
  Price-waterhouseCoopers, Boston, MA............................    26
Dillinger, Eric, Vice President, Carter and Burgess, Inc., Fort 
  Worth, TX......................................................    23
Hill, Barry T., Director, Natural Resources and Environment, 
  General Accounting Office......................................     9
Kiernan, Thomas C., President, National Parks Conservation 
  Association....................................................    28
Murphy, Donald W., Deputy Director, National Park Service, 
  Department of the Interior.....................................     4
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    43

                              Appendix II

Additional material submitted for the record.....................    45


                         NATIONAL PARKS BACKLOG

                              ----------                              


                         TUESDAY, JULY 8, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Good morning. The time has arrived so we 
will begin, and I hope we will have some more members here. I 
think we will have. Thank you all for being here. I 
particularly want to welcome the National Park Service, General 
Accounting Office and other witnesses for appearing before 
today's National Parks Subcommittee hearing. Our purpose is to 
talk a little bit about the deferred maintenance and plans to 
deal with that over time, and of course it's one of the issues 
that is always before us with respect to these facilities.
    Over the years, of course, the Park Service has for various 
reasons deferred, or perhaps even had to set aside facility 
maintenance until funds were available and of course you know, 
if you use that approach on your car, it wouldn't be long 
before it would stop running, and so there has to be a plan of 
some kind over time to be able to maintain those facilities if 
we are going to maintain the kind of parks that all of us want.
    And the estimates are large. We have heard a lot lately 
about the outstanding needs in the range of $4 to $6 billion, a 
tremendous amount of money. The GAO conducted a review of the 
backlog in 1998 and identified several things that I am sure we 
will talk about today, and I am glad they joined us today.
    I think the Park Service has historically had a difficult 
time in trying to take care of all the facilities that are 
there and identifying all of those, and so I was pleased when 
the Secretary and the Director released a report on their 
progress a week ago in terms of how best to do this, and I 
think that's important that we have a system. I think, you 
know, in any sort of business that we have, the maintenance of 
facilities has to be one of the things in the operating budget 
or you run into big problems.
    Basically what we're seeking to do today, I think, is get a 
feel from you all as to the scope of the deferred maintenance 
backlog that is there, I think to get some idea with respect to 
reducing or eliminating that backlog, what has been done and as 
importantly, what yet needs to be done, and of course talk 
about systems to do that. I think we ought to consider 
somewhere along the line the impact of new park unit 
designations and additions and what impact that has on the 
Park's ability to maintain the facilities that we now have, 388 
facilities or something, and every week there is more, all of 
which are good, but there also needs to be at some point some 
decisions made there; I think whether or not the Park Service 
either reduced or had to have neglected some other activities 
in order to have a maintenance backlog and of course, whether 
or not that funding has delayed filling job vacancies and 
imposed itself upon the operating budget in particular.
    I'm also interested, I have heard and seen, I think, some 
administration ideas that there would be $4 or $5 billion 
available for this backlog over time, but yet, I believe that 
the current budget recommendation is about the same as last 
year, so I would be interested in knowing what the plans are 
there.
    I think it will be an excellent time for us to really deal 
with this issue and see how we can help to do that.
    Senator, welcome. Glad to have you here, sir. Do you have 
any opening comments?
    [A prepared statement from Senator Campbell follows:]
          Prepared Statement of Hon. Ben Nighthorse Campbell, 
                       U.S. Senator From Colorado
    Thank you for calling this hearing, Senator Thomas. The advent of 
our national parks system was a hallmark of the 20th century. Our parks 
have and continue to be regarded as the world's best, attracting 
tourists from all over the globe.
    Unfortunately, toward the end of the last century, the National 
Park Service has become burdened by a tremendous maintenance backlog. 
The reasons for that backlog are many, in no small part due to 
Congress' consistent expansion of the system.
    Under Secretary Norton's leadership, the Service has done an 
admirable job in meeting that backlog, especially if one considers the 
need to spend greater resources on security on tighter budgets. 
Interior's recent document titled, National Park Service: Partnering 
and Managing for Excellence, highlights the Park Service's successes in 
meeting the maintenance backlog. For example, it points out that since 
FY 2002, nearly $2.9 billion has been provided to address the $4.9 
billion backlog. Approximately 900 repair/rehabilitation projects were 
addressed in FY 2001 and 2602, and another 500 projects are being 
tackled in FY 2003. The report goes on to note the innovative 
partnerships between the Park Service and state and local governments, 
as well as working with third-party interests in meeting funding needs.
    However, the Park Service seems to focus on quantity and not 
quality in prioritizing its backlog. For example, at Mesa Verde 
National Park in my state of Colorado is home to some of the greatest 
cultural resources in the Americas. Mesa Verde has long been an 
important site to several Indian Tribes who return to the Park for all 
manner of sacred and traditional rituals. In fact, three million 
artifacts dating from 600 to 1300 A.D. were found and are stored at 
Mesa Verde.
    Unfortunately, the curatorial storage facility housing these 
treasures was woefully inadequate, resulting in the tangible loss of 
history. Mesa Verde's curatorial facility has long been recognized as 
lacking. Recently, the Park spent hundreds of thousands of dollars to 
improve the facility, yet it still only meets 60% of Secretary Norton's 
own criteria defining adequate storage. To make matters worse, Mesa 
Verde is constantly threatened by a very real sense of danger from 
wildfire. Just last year, all of the artifacts had to be temporarily 
relocated to a new facility when a catastrophic wildfire blazed through 
the Park.
    Even though the current facility fails the Secretary's own 
scorecard, and wildfire and inadequate storage threatens the existence 
of priceless artifacts, the National Park Service did not list a new 
facility as a priority for next year or even the year after that. 
Rather, the NPS provides funding for a new facility in 2009--seven 
years from now.
    I was perplexed at how can the Park Service delay and delay saving 
and preserving these artifacts year after year so I did a little 
checking on how the Service identifies and manages its backlog. As I 
understand it, the NPS uses a system called, ``choosing by 
advantages,'' which is similar to a cost-benefit analysis. In this 
case, the NPS identifies a high value because it would be protecting 3 
million priceless artifacts. The Service then divides that value by the 
cost of the protection.
    In this case, because we are talking about preserving 3 million 
priceless resources, the cost of building such a structure would be 
expensive because it would have to be relatively large. In the case of 
the Mesa Verde Park, the result of ``choosing by advantages'' is that 
the project with the greatest value, even where there is the greatest 
need, can be relegated to second tier or FY09 status.
    Something needs to change. I commend the National Park Service and 
Secretary Norton. However, so much more needs to be done. I urge the 
Park Service to take a hard look at the way in which it prioritizes 
projects in administering its backlog.
    Thank you.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman, and thank 
you very much for scheduling this hearing.
    When I came to Senate in 1990, the National Park Service 
deferred maintenance backlog was a major issue, and it remains 
one today. While I understand there are different views about 
the extent of the backlog and progress being made to reduce it, 
I know we all agree on the importance of addressing this issue.
    I hope this hearing will serve two purposes. First, it is 
important that we get a better understanding of the underlying 
facts and issues that are involved. For example, what is our 
best estimate of the backlog and what progress have we made 
toward reducing it? Even more basic, is there agreement on what 
actually constitutes deferred maintenance, or are we double 
counting already scheduled maintenance projects? In other 
words, we need a clear understanding of what service categories 
of deferred maintenance and backlog reduction are consistent 
and accurate over time. Second, this hearing is important to 
draw attention to this matter because whatever the reason for 
the backlog accumulating in the first place, the only way it's 
going to be reduced or eventually eliminated is by having more 
money appropriated.
    As a former member of the House Appropriations Committee, I 
can appreciate the difficulties my colleagues on the 
Appropriations Committee will face in trying to find additional 
funds for this or any other worthwhile program. Unlike many 
issues facing the committee, National Park issues are rarely 
partisan. I hope we will focus not on who is responsible for 
the problem, or who should get credit for an increase in 
maintenance funding, but rather, on how we will solve this 
problem.
    Finally, as important as it is to try to reduce the 
maintenance backlog, I think we need to remember that this is 
not the only priority for the Park Service. Deferred 
maintenance funding cannot come at the expense of management 
and interpretive needs of the Park Service, and we need to 
ensure that we don't offset money from existing operational 
accounts to increase the score card on maintenance. The Park 
Service must have the ability to accomplish its primary 
mission, and that is to protect and preserve our irreplaceable 
natural, cultural, and historic treasures.
    Mr. Chairman, again, I want to thank you for holding this 
hearing and I look forward to hearing our distinguished 
witnesses.
    Senator Thomas. Thank you, sir. Senator Alexander, do you 
have a statement?
    Senator Alexander. Glad to be here, Mr. Chairman, I look 
forward to hearing from the witnesses and I will ask my 
questions after that.
    Senator Thomas. That was a beautiful short statement, thank 
you, sir. A bit unusual around here.
    Let's go on then with the panel. We would like to welcome 
Donald Murphy, Deputy Director, National Park Service, who is 
with us this morning, and Barry Hill, Director, Natural 
Resources and Environmental Issues for the GAO. Welcome, 
gentlemen. Glad to have you here.
    Go right ahead, Mr. Murphy, please.

        STATEMENT OF DONALD W. MURPHY, DEPUTY DIRECTOR, 
       NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Murphy. Thank you, Mr. Chairman, for this opportunity 
to appear before the subcommittee and discuss the National Park 
Service's backlog of deferred maintenance and some of the 
related issues. We're pleased to have the opportunity to share 
our successes in addressing the deferred maintenance backlog 
with you this morning, which in an important component of the 
President's Parks Legacy Program.
    As you already mentioned, Secretary Norton and Director 
Maniella did issue a report just recently, gave it to the 
President, on the National Park Service: Partnering and 
Managing for Excellence, where we highlighted some of the 
accomplishments that we have made as far as the maintenance 
backlog is concerned. As you pointed out, the backlog has been 
estimated anywhere from $4 to $6 billion. There was the 
original report by the General Accounting Office that 
highlighted approximately a $4.9 billion maintenance backlog 
and the President of the United States, or course during the 
campaign and then early on in the administration, took that 
number as an estimate of what the current maintenance backlog 
happened to be and made a pledge to try to tackle at a minimum, 
that much of the maintenance backlog.
    So far, over the past 2 years, we have of course spent 
approximately $2.9 billion tackling that backlog. He's 
proposing more than $760 million annually over a 5-year period 
that will totally roughly $3.84 billion toward addressing that 
backlog, as well as during that same period approximately $1.26 
billion to handle road maintenance. The funds provided to date 
have addressed very specific projects, everything from 
wastewater treatment plants that you have read about in the 
report to money that has gone to Federal Hall Foundation, some 
to respond to some of our resource management projects as well, 
$2.1 million to Yellowstone to replace a wastewater treatment 
plant and relocate sewer lines that were threatening Old 
Faithful. Approximately 900 repair and rehab projects have been 
addressed during that period, with another 500 or so in the 
pipeline.
    I think the most important thing that we will say here this 
morning is that we really have to get an honest handle on what 
the maintenance backlog is. The only way we can do that is 
through a systematic approach of inventorying what you have, 
and prior to just 2 years ago, the National Park Service had 
absolutely no inventory of the facilities that made up its 
facility maintenance program. We have undertaken over the last 
2 years to begin that inventory, have completed 125 parks so 
far, and the last parks will be completed by the end of this 
fiscal year, except for the four largest, which will be 
completed by the end of fiscal year 04. So first of all, you 
have to establish the universe of what you have and that's what 
the physical inventory does.
    The next most important step in that is establishing a 
facility condition index for that inventory that you have, and 
that facility condition index is based on what it costs you to 
keep a facility in good repair, divided by its current 
replacement value. That gives you a ratio and as long as that 
ratio is .1 or below, you know your facilities are in good 
condition. If that number is above that, you know that you need 
to start taking care of those facilities.
    Not only that, that has to be coupled with what's called 
also an asset priority index, which allows you to prioritize 
the importance of the facilities that you do have, so that not 
only do you have a facility condition index that you supplement 
with a priority index, and that gives you the ability to then 
focus on just those projects that are the most important and 
the most critical, those that you can really begin to make the 
most of the monies that you are spending.
    This program never existed in the National Park Service 
before and it's really not until this program is really fully 
implemented that you're going to really have a very good 
understanding and handle on what the maintenance backlog is. 
Right now we're dealing with estimates and they're fairly good 
estimates, but they are not objective and systematic estimates 
based on real data.
    That's what we're undertaking to do in the National Park 
Service and until that job is complete, all of this talk about 
what the scope of the maintenance backlog is just your best 
guess based upon the situation at any given moment.
    We have provided CD-ROMs that we will give to the members 
that will really explain in great detail exactly how this 
facility assessment program will work in the National Park 
Service. It's used by the Department of Defense, it's used by 
other agencies across the Nation, and it really is a state-of-
the-art computerized program that will help us finally get a 
handle on our maintenance or facility maintenance program. It's 
extremely important to us.
    I think the other important thing to mention this morning 
is, you know, it's really important that we focus on the 
National Park Service's ability to connect with the American 
people. So as part of the President's Legacy program, he's 
encouraging American people to participate in the protection of 
national and cultural resources through such programs such as 
the Land and Water Conservation Fund, the new Preserve America 
program which was just announced, Take Pride in America, which 
is a program that has existed for a number of years and 
encourages volunteers to come and work in land management 
agencies as volunteers. And so, this is an extremely important 
part of the administration's focus on the Legacy for National 
Parks as well.
    I think you all know of the effects of 9/11 on increased 
security in this Nation. The National Park Service has 9 
designated areas as critical infrastructure in this nation. 
There are icon parks, places such as the Status of Liberty, the 
Mall right here in Washington, all of the monuments, the 
Jefferson Memorial, all of these areas are falling under our 
areas with the need for increased security and we're focusing 
our efforts and resources on that as well.
    You mentioned the addition of new units to the National 
Park Service. During the last 5 years, 14 new units have come 
into the National Park system. Congress created 11 new units, 
President Clinton established by proclamation three.
    For fiscal year 04, it is important to know that the 
proposed operating budgets for these new units is nearly $4 
million dollars and includes a total of 10 full-time 
equivalents, and their staff will, of course, be expected to 
increase over the years and they do, of course, have an impact 
on the overall funding needs of the National Park Service.
    So, we appreciate the opportunity to outline some of the 
visions that this administration has for managing the parks, 
particularly in the area of maintenance backlog and I seriously 
look forward to answering your questions as forthrightly as I 
can, and I have prepared testimony that we have made available 
for the committee as well. Thank you.
    [The prepared statement of Mr. Murphy follows:]
       Prepared Statement of Donald W. Murphy, Deputy Director, 
           National Park Service, Department of the Interior
    Mr. Chairman, thank you for the opportunity to appear before your 
subcommittee to discuss the National Park Service (NPS) backlog of 
deferred maintenance and related issues.
    We are pleased to have the opportunity to share our successes in 
addressing the deferred maintenance backlog, which is an important 
component of President Bush's National Parks Legacy Project. The Legacy 
Project was initiated to ensure proper care of our National Park System 
and is designed to enhance ecosystems, improve outdoor opportunities, 
address infrastructure needs, and establish accountability through 
performance goals. As the President said in his first address to a 
joint session of Congress in 2001, ``Our national parks have a special 
place in our country's life. Our parks are places of great national 
beauty and history. As good stewards, we must leave them better than we 
found them.''
    On July 2, 2003, Interior Secretary Gale Norton and NPS Director 
Fran Mainella issued a report entitled ``National Park Service: 
Partnering and Managing for Excellence'' (NPS Accomplishments Report) 
that highlights the progress toward fulfilling the goals of President 
Bush's National Parks Legacy Project. A major focus of the report is 
the accomplishments NPS has made in addressing the deferred maintenance 
backlog.
    The President has committed significant funding to address both the 
repair and management aspects of the deferred maintenance backlog. He 
is proposing more than $760 million annually over a five-year period, 
for a total of $3.84 billion, to pay for non-road maintenance and 
construction and nearly $1.26 billion during the same period for road 
maintenance. In addition, for the first time ever, NPS has established 
the Asset Management Program which includes the implementation of the 
Facility Management Software System (FMSS), an off-the-shelf system to 
monitor and prioritize ongoing maintenance needs that will allow NPS to 
manage the backlog and prevent a recurrence of maintenance backlogs in 
the future. Most importantly, through the establishment of this 
program, NPS will be able to measure performance in improving facility 
conditions through a Facility Condition Index (FCI). This will allow us 
to track progress in achieving results, rather than just counting 
funds.
    A May 1998 General Accounting Office report (``Efforts to Identify 
and Manage the Maintenance Backlog'' GAO/RCED-98-143) stated that the 
NPS ``does not have a routine, systematic process for determining its 
maintenance backlog'' and cited concerns about the accuracy of the NPS 
estimate of $4.9 billion (excluding new construction). Using the only 
estimate available, President Bush committed to provide at least $4.9 
billion in funding for NPS to address the deferred maintenance backlog. 
The Administration is on a path to meet that goal. To put the funding 
increases in perspective, the more than $1 billion requested for FY 04 
is nearly 50 percent more than was provided in FY 00 and double what 
was provided in FY 97.
    Funds provided to date are achieving tangible results, and the NPS 
has begun to improve the condition of hundreds of park assets using the 
increased funding Congress has appropriated at President Bush's 
request. For example:

  <bullet> $16.5 million has gone to Federal Hall National Memorial to 
        repair cracks in the building;
  <bullet> $4.1 million is being used at Everglades National Park to 
        repair a 135,000 gallon-per-day wastewater treatment system;
  <bullet> $4.1 million has gone to Lava Beds National Monument to 
        relocate the visitor center away from fragile underground 
        resources; and
  <bullet> $2.1 million is being used at Yellowstone National Park to 
        replace a wastewater treatment plan and relocate the Old 
        Faithful sewer line.

    In the past two years, NPS has tackled approximately 900 repair and 
rehabilitation projects. These projects, including 60 fire safety 
projects, have enhanced visitor and employee safety. They have improved 
health protection by upgrading and repairing 186 water, wastewater, and 
sewer facilities. They have made buildings better and safer for 
visitors through over 325 general building and safety rehabilitation 
projects. Another 500 projects are underway in 2003 and approximately 
400 more are programmed for 2004.
    As part of the President's Legacy Project, park roads, too, will be 
brought into good condition. In 2001, just 35 percent of park roads 
were in good condition. Under the proposed highway transportation bill, 
which would provide $1.89 billion over six years for the Park Roads and 
Parkways Program, over 80 percent of paved park roads would be brought 
into good or excellent condition, and virtually no paved road would be 
in poor condition.
    An essential component of the National Parks Legacy Project is to 
prevent future backlogs by bringing state-of-the-art facility 
management to the parks. An essential component of the National Parks 
Legacy Project is to prevent future backlogs by bringing state-of-the-
art facility management practices to the parks through the Asset 
Management Program. The Asset Management Program will give us the 
capacity to generate information about our assets on a service-wide 
basis. To accomplish this goal, NPS is implementing a new off-the-shelf 
software system, the Facility Management Software System (FMSS). This 
system is now operational in some parks and will be fully implemented 
by 2006. NPS has developed a CD-ROM that explains the asset management 
program. We have provided a copy to this subcommittee and hope that you 
will have an opportunity to view it.
    NPS is taking the necessary steps to ensuring effective and 
efficient implementation of the Asset Management Program. The first 
step is to better understand the condition of the NPS infrastructure at 
each park by conducting an inventory, identifying deficiencies, and 
estimating the cost of repair and current replacement value of park 
assets. NPS is accelerating its efforts to complete these facility 
condition assessments at all 388 park units to provide, for the first 
time, a complete inventory of maintenance needs. Facility condition 
assessments at 125 parks were completed by December 2002. By the end of 
FY 03, facility condition assessments will be completed at all but four 
of the largest parks. The NPS will complete the final facility 
condition assessments on these parks in FY 04.
    Our current estimates of NPS infrastructure show that it includes 
more than 26,000 historic structures and other buildings, 8,500 
monuments, over 12,000 miles of trails, some 1,200 water systems, and 
about 1,400 wastewater treatment plants. Our road network is estimated 
to consist of nearly 5,500 paved miles of road, more than 6,000 miles 
of unpaved roads, and some 1,700 bridges. The facility condition 
assessments, completed as part of the Asset Management Program will 
allow NPS to refine and validate these numbers further.
    The next step in implementing the Asset Management Program is to 
determine the Facility Condition Index (FCI) for park assets, except 
for roads which use the Pavement Condition Rating (PCR). The FCI is a 
performance measure used to help quantify or determine the condition of 
a particular park asset based on the cost of repair and the current 
replacement value. To determine the cost of repair of an asset, NPS 
uses FMSS to link information derived through the facility condition 
assessments to an industry-standard cost-estimating tool. Thus, NPS can 
measure progress against the industry-standard measure of a FCI for 
certain types of assets such as buildings. Other assets, however, such 
as monuments and cultural landscapes do not have industry-standard 
measures and are more difficult to compare.
    Once the FCI is determined for individual assets, NPS will be able 
to establish a service-wide FCI baseline, and then use the baseline to 
determine FCI target ranges for improved future conditions. NPS has 
established an initial FCI baseline by using statistical modeling on 
the facilities condition assessments completed thus far for eight major 
categories of regular assets (i.e., buildings, campgrounds, trails, 
paved roads, unpaved roads, water systems, wastewater treatment plants, 
and employee housing). FCI target ranges are NPS performance goals. NPS 
is still working to verify these numbers and determine the FCI levels 
for fair and good condition, so we are not yet in a position to discuss 
the total costs of bringing the facility average up to fair or better 
condition. We expect to be able to use FCI performance measures and 
targets to support the President's 2005 Budget. This process will allow 
NPS to evaluate the impact of particular funding levels on asset 
performance and condition and quantify the consequences of delaying or 
not accomplishing repairs.
    The final step in implementing the Asset Management Program is to 
use FCI, the Asset Priority Index (API), and other policy 
considerations to prioritize the maintenance needs of park assets. The 
API is used by park managers to identify the importance of the asset in 
accomplishing the park's mission. Through the Asset Management Program, 
NPS will have to articulate clearly and consistently its asset 
priorities, the investment needed to sustain them, and the rate of 
deterioration over time. Other important reasons to invest in a 
facility include such considerations as critical health, safety, and 
resource protection needs, partnerships, and visitor services 
requirements. Likewise, it may be appropriate to demolish structures 
for which the costs to improve the condition are prohibitive.
    Professional facility management also requires regular maintenance 
to prevent facilities from gradually falling into disrepair. In FY 03, 
funding for cyclic maintenance increased from $22 million to $42 
million, and in FY 04 is slated to increase to $56 million under the 
President's budget. By ensuring cyclic and preventative maintenance at 
regular intervals, this investment will help prevent a maintenance 
backlog recurrence. While new park facility maintenance needs will 
continue to emerge, the combination of increased funding and management 
reforms instituted through the Asset Management Program will allow the 
NPS to find the point where sustainable funding levels will cover an 
asset's life cycle maintenance and capital replacement costs.
    Another component of the President's Legacy Project and the NPS 
Accomplishments Report recognizes NPS' special connection to the 
American people and its unique ability to engage the public, establish 
partnerships and promote volunteerism. The NPS is serving as a catalyst 
and encouraging many individuals and organizations to leverage 
resources and information, overcome organizational and procedural 
barriers, and increase cooperation and consultation. The President is 
encouraging the American people to participate in the protection of 
natural and cultural resources through such programs as Land and Water 
Conservation Fund stateside grants, the Preserve America Initiative, 
Take Pride in America, and the creation of public and private 
partnerships. Through these programs, our goal is to create a seamless 
national network of parks, historic places, and open spaces.
    The President's Legacy Project also seeks to improve visitor 
service and keep the parks safe. The September 11, 2001 terrorist 
attacks on the United States and the resulting world events require 
increased security for our national parks and monuments throughout the 
National Park System. As the principal steward of our nation's most 
treasured cultural icons, the NPS has assigned nearly 200 additional 
protection rangers to meet increased security needs. Secretary Norton 
has issued directives to improve the management of the law enforcement 
program within the NPS and across the Department of the Interior. NPS 
also has developed a comprehensive Emergency Preparedness and Response 
plan to protect public health in the unique settings of the national 
parks and is coordinating with other bureaus and agencies to ensure 
complete communications integration. NPS will continue to strengthen 
security efforts through better training of personnel and improved 
equipment.
    The efforts outlined in the NPS Accomplishments Report demonstrate 
the President's commitment to taking better care of the parks already 
under our stewardship. Because this effort focuses on addressing the 
deferred maintenance backlog, the Department has been asking Congress 
to defer action on bills that would establish new units of the National 
Park System, despite the fact that some of these proposals might 
otherwise merit our support. We have taken this position because we are 
concerned about the demands each new unit could create on the NPS 
budget.
    When Congress authorizes new units, additional funding for 
operation, maintenance, and usually, land acquisition and construction 
are ultimately required. Additional personnel are also usually 
required. Existing authorizations to acquire land for new units and 
boundary expansions exceed available funds.
    During the last twelve years (1991-2002), 34 new units of the 
National Park System were established. Congress created 31 of the new 
units and President Clinton established three by Presidential 
Proclamation. For FY03, the operating budgets for these new units total 
$25.6 million. Some of these units are so new, they are not fully 
operational, so their operational costs will likely grow. For these 34 
units, the current system of identifying needs in the park contain over 
$30 million in recurring unfunded operational needs and over $265 
million in unfunded one-time projects. While all of these items will 
not be funded anytime soon, they represent new demands on the National 
Park System that were not there 12 years ago. The President's FY 04 
request includes $5.1 million or 36 percent of the total request for 
programmatic increases for parks with new responsibilities. A portion 
of this amount includes planning and start-up money for some of the 
newly authorized units.
    We are trying to slow the growth of the National Park System so 
that we can focus our resources for the time being on reducing the 
deferred maintenance backlog. In advancing President Bush's National 
Parks Legacy Project, the NPS has substantially reduced the deferred 
maintenance backlog and instituted measures to prevent its recurrence. 
We are also taking other steps to be the most effective and efficient 
agency possible with the financial resources we have at our disposal.
    We appreciate this opportunity to outline the vision of caring for 
and enhancing the special places in our National Park System, as set 
forth in President Bush's National Parks Legacy and the ``National Park 
Service: Partnering and Managing for Excellence'' Report. We will 
continue to work with this subcommittee as we move forward with our 
efforts to address the maintenance backlog and improve the management 
of the National Park System.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you may have.

    Senator Thomas. Thank you, sir. I'm sure we will have some 
questions.
    Mr. Hill.

         STATEMENT OF BARRY T. HILL, DIRECTOR, NATURAL 
      RESOURCES AND ENVIRONMENT, GENERAL ACCOUNTING OFFICE

    Mr. Hill. Mr. Chairman and members of the subcommittee, I'm 
pleased to be here today to discuss the National Park Service 
maintenance backlog and if I may, I would like to briefly 
summarize my prepared statement and submit the full text of the 
statement for the record.
    Senator Thomas. It will be included.
    Mr. Hill. For decades, GAO, the Department of the Interior 
and others have reported on the Park Service's efforts to 
develop an effective maintenance management process that would 
enable the Agency to provide accurate and reliable estimates of 
the amount of deferred maintenance on its assets. Over the 
years, the Agency's estimates of its deferred maintenance 
backlog have varied widely, sometimes by billions of dollars. 
Today the Agency estimates that its deferred maintenance 
backlog is about $5 billion. The Agency acknowledges that it 
still does not have the data needed to properly manage the 
broad array of historic, cultural and natural assets placed in 
its care. In 1998 the Park Service initiated and designed a new 
asset management process that is intended to provide the Agency 
with a better overall approach to managing its asset inventory.
    My testimony today summarizes our prior work regarding the 
potential of the Park Service's new asset management process 
and provides an update on the progress the Park Service is 
making in implementing it.
    Let me start by briefly summarizing our prior work. In 
April 2002, we reported the Park Service had made progress in 
developing a new asset management process that when fully and 
properly implemented, should provide the Agency with more 
accurate and reliable estimates of the amount of deferred 
maintenance on its assets. As currently planned the new process 
will, for the first time, enable the Agency to have a reliable 
inventory of its assets, a process for reporting on the 
condition of the assets in its inventory, and a system-wide 
methodology for estimating deferred maintenance costs for its 
assets.
    Although the new process appears promising, we raised the 
following concerns. First, the success of the process could not 
be determined until staff at each of the park units are trained 
and the process is fully and properly implemented.
    Second, the Park Service had not yet estimated what the 
total implementation cost for the process would be, or 
developed a schedule for when full implementation would occur. 
Third, two different operating divisions within the Park 
Service, that being concessions management and facilities 
management, were developing separate processes for tracking and 
reporting deferred maintenance and it was unclear whether their 
efforts were duplicative. And finally, only about one third of 
the park units complete annual conditions systems by the end of 
fiscal year 2002. While this approach may have been appropriate 
for meeting management and financial reporting needs in the 
short term, without comprehensive assessments, more complex and 
costly problems might be overlooked in the long term.
    Now let me update the progress we're aware of in 
implementing the new process. Since our last report, I'm 
pleased to say that the Park Service has made progress. The 
Park Service now reports that it has completed its inventory of 
assets for all park units as well as the first round of staff 
training on the use of the computer software.
    The Agency has also developed costs and schedule estimates 
for implementing the process. According to the schedule, the 
process is to be fully implemented by the end of fiscal year 
2006 at a cost of about $90 million, including the costs of 
performing condition assessments on park assets. Thereafter, 
the annual cost of sustaining the process will be about $20 
million.
    Also, the Park Service is now in the early stages of 
developing a plan to eliminate any duplication or 
inconsistencies between the concessions and the facilities 
management organizations. Furthermore, the Agency has completed 
annual condition assessments on all but 9 of the larger parks 
in the system, and is concurrently performing the more detailed 
comprehensive condition assessments on other park units.
    Mr. Chairman, may I point out that we have not had the 
opportunity to verify the information I'm providing on the 
status of the Park Service implementation of its new process. 
However, we believe that if this new process is fully 
implemented as planned, the Park Service will be in a better 
position to determine the conditions of the assets in its 
portfolio and to develop accurate and more reliable estimates 
of its deferred maintenance needs.
    This concludes my prepared statement and I will be more 
than happy to answer any questions you or the members may have.
    [The prepared statement of Mr. Hill follows:]
 Prepared Statement of Barry T. Hill, Director, Natural Resources and 
                 Environment, General Accounting Office
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss the National Park Service's maintenance backlog. 
GAO, the Department of the Interior, and others have reported on the 
Park Service's efforts to develop an effective maintenance management 
process that would, among other things, enable the agency to provide 
accurate and reliable estimates of the amount of deferred maintenance 
on its assets. Over the years, the agency's estimates of the amount of 
its deferred maintenance backlog have varied widely--sometimes by 
billions of dollars.
    Currently, the agency estimates its deferred maintenance backlog at 
over $5 billion. Although the Park Service has spent almost two decades 
addressing its maintenance backlog, it acknowledges that it still does 
not have the data it needs to properly manage the broad array of 
historic, cultural, and natural assets placed in its care--including 
accurate and reliable data on its deferred maintenance needs.\1\ In 
1998, spurred by continuing congressional concerns and new federal 
accounting standards,\2\ the Park Service initiated the design of a new 
asset management process that is intended to provide the agency with a 
better overall approach to managing its asset inventory.
---------------------------------------------------------------------------
    \1\ This maintenance includes resources and activities needed to 
maintain facilities and the infrastructure in the system, such as 
buildings, trails, botanical gardens, bridges, and other structures. It 
does not include maintenance or restoration of natural landscapes, such 
as removing non-native plant species from a meadow.
    \2\ The Statement of Federal Financial Accounting Standards No. 6, 
Accounting for Plant, Property, and Equipment, issued by the Federal 
Accounting Standards Advisory Board in 1996, requires that deferred 
maintenance be disclosed in federal agencies' annual financial 
statements beginning in fiscal year 1998.
---------------------------------------------------------------------------
    A major goal of this new process is to provide the Park Service 
with a reliable and systematic method for estimating and documenting 
its deferred maintenance needs and tracking progress in reducing the 
amount of deferred maintenance.
    As you requested, my testimony today will (1) summarize our prior 
work regarding the potential of the Park Service's new asset management 
process to provide maintenance data that will permit agency managers 
and the Congress to monitor progress in reducing deferred maintenance 
and (2) update the progress the Park Service is making in implementing 
its new asset management process and realizing its potential for 
improved management.
    For the most part, my testimony is based on a report we issued last 
year.\3\ At that time, the design of the new process was complete but 
implementation was just beginning. In preparing for today's hearing, we 
obtained updated information from the Park Service. However, we did not 
have the opportunity to independently verify the information the Park 
Service provided. To do so would have required work at regional offices 
and parks. We conducted our work in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \3\ U.S. General Accounting Office, National Park Service: Status 
of Efforts to Develop Better Deferred Maintenance Data, GAO-02-56SR 
(Washington, D.C.: Apr. 12, 2002).
---------------------------------------------------------------------------
                            results in brief
    As we previously reported, the Park Service's new asset management 
process is designed to address deferred maintenance, commonly referred 
to as the maintenance backlog, as part of a much broader approach to 
asset management. When fully and properly implemented, the new process 
is expected, for the first time, to enable the agency to have a (1) 
reliable inventory of its assets; (2) process for reporting on the 
condition of each asset in its inventory; and (3) consistent, system-
wide methodology for estimating the deferred maintenance costs for each 
asset.
    As a result, agency managers and the Congress should receive much 
more accurate and reliable information on the extent of deferred 
maintenance needs throughout the national park system. Nonetheless, 
while the Park Service's current efforts are promising, we reported on 
a few areas that the agency needed to address to improve the 
performance of the process. These included the need to (1) develop 
costs and schedules for completing the implementation of the process so 
that the agency's performance could be monitored and assessed, (2) 
better coordinate the tracking of the process among Park Service 
headquarters units to avoid duplication of effort within the agency, 
and (3) better define its approach to assessing the condition of its 
assets, and determining how much the assessments will cost.
    Since our report last year, I am pleased to say that the agency 
appears to have made progress. While complete implementation of the 
process will not occur until fiscal year 2006, the agency has 
completed, or nearly completed, several substantial and important 
steps. According to the Park Service, it has completed its asset 
inventory, trained staff on the use of the required computer software, 
and completed most of the on-site inspections necessary to determine 
the condition and maintenance needs of inventoried assets. In addition, 
the Park Service provided information indicating that it was addressing 
each of the concerns identified in our prior report.
                               background
    The national park system contains 388 park units. These park units 
have a diverse inventory of facilities and other assets, including over 
18,000 permanent structures, 8,000 miles of roads, 1,800 bridges and 
tunnels, 4,400 housing units, about 700 water and wastewater systems, 
over 400 dams, and 200 solid waste operations. The Park Service values 
these assets at over $35 billion. Needless to say, the proper care and 
maintenance of the national parks and their supporting infrastructure 
is essential to the continued use and enjoyment of our national 
treasures by this and future generations.
    However, for years Park Service officials have highlighted the 
agency's inability to keep up with its maintenance needs. In this 
connection, Park Service officials and others have often cited a 
continuing buildup of unmet maintenance needs as evidence of 
deteriorating conditions throughout the national park system. The 
accumulation of these unmet needs is commonly referred to as its 
``maintenance backlog.'' Although the Park Service has spent almost two 
decades and about $11 million addressing this problem, it still does 
not have a reliable estimate of deferred maintenance needs for its 
facilities and other assets.
    In the past several years, concerns about the cost of operating and 
maintaining federal recreation sites within the National Park Service, 
as well as other federal land management agencies, led the Congress to 
provide a significant new source of funds. This additional source of 
funding the Recreational Fee Demonstration Program \4\--was, in part, 
aimed at helping the agencies address their backlogged repair and 
maintenance problems. This new funding source is in addition to annual 
appropriations the Park Service receives each year for maintenance 
activities.\5\
---------------------------------------------------------------------------
    \4\ Since fiscal year 1996, the Park Service, as well as three 
other federal land management agencies, have been authorized to have a 
fee demonstration program. Under this temporary program, the agencies 
are permitted to experiment with increased and/or new recreation fees. 
The revenue generated from this program remains available for agency 
use to address a variety of needs, including maintenance, without 
further appropriation.
    \5\ The House Committee on Appropriations has stressed that 
recreation fees should never be used to replace appropriated funds; the 
fees should be used for direct improvements on site that enhance the 
recreation experience. H.R. Rep. No. 106-646 (2000).
---------------------------------------------------------------------------
    Despite the years of attention and funding and the well-intended 
efforts of the agency and the Congress to resolve the maintenance 
backlog dilemma, it has not gone away. While Congress continues to 
provide hundreds of millions of dollars annually to deal with the 
maintenance backlog at the national parks, the Park Service still has 
no reliable data on the size of the problem, raising questions about 
what has been accomplished with the provided funds.
   when fully and properly implemented, the park service's new asset 
   management process should provide accurate and reliable deferred 
                            maintenance data
    As we reported in April 2002, the Park Service has made progress in 
developing a new asset management process that, when fully and properly 
implemented, should provide the agency with more accurate and reliable 
estimates of the amount of deferred maintenance of its assets. As 
currently planned, the new process will, for the first time, enable the 
agency to have a (1) reliable inventory of its assets; (2) process for 
reporting on the condition of assets in its inventory; and (3) system-
wide methodology for estimating deferred maintenance costs for assets.
    The new asset management process is composed of both system-wide, 
integrated software to track cost and maintenance data and regular 
condition assessments of Park Service assets. The cornerstone of the 
new asset management process is the Facility Management Software 
System. This cradle-to-grave asset and work management process will 
allow park, regional office, or Park Service headquarters managers to 
track when, what, and how much maintenance and related costs has been 
directed at each specific asset.
    In addition to using the software system, the Park Service plans to 
assess the condition of its assets. These assessments will be 
inspections to document the condition of an asset as measured against 
applicable maintenance or condition standards. There are two types of 
condition assessments annual and comprehensive. Annual assessments are 
essentially ``eyeball inspections'' of facilities to identify obvious 
and apparent deficiencies. Comprehensive assessments are more in-depth 
inspections to identify less obvious deficiencies, such as foundation 
or structural problems. While the eye-ball assessments are annual, the 
comprehensive assessments, which are much more expensive and time-
consuming, occur in 5-year cycles. The Park Service is to use the 
information obtained from these condition assessments to establish the 
overall condition of a facility or asset, including the resources 
needed to address its deferred maintenance needs and future facility 
needs. The cost of identified deferred maintenance needs will be 
estimated using another computer software system that will provide a 
uniform method for estimating repair and maintenance costs for each 
asset in the inventory. Agency managers will use the condition 
assessment information in combination with an asset priority ranking 
system to set priorities for deferred maintenance projects.
    While the design of the new process is complete, we reported in 
April 2002 that the Park Service had just begun implementing it. For 
example, at that time, the agency was still inventorying its assets and 
training staff on how to use the new process at about a third of the 
park units in the national park system. We reported that because 
managers at each park will be required to implement this new process 
using a uniform system-wide methodology, the resulting deferred 
maintenance estimates should permit agency managers, as well as the 
Congress, to monitor progress in reducing deferred maintenance both at 
the individual park and system-wide levels. However, we noted that 
while the new process is promising, its success cannot be determined 
until staff in each of the park units are trained and the new asset 
management process is fully and properly implemented.
    In our last report, we also raised three concerns about the Park 
Service's implementation of the new asset management process. While 
these matters were not significant enough to undermine the overall 
merit of the new process, we believed that addressing them would 
improve the effectiveness of the process. First, even though the Park 
Service had been developing its new process for more than 3 years, it 
had not yet estimated its total implementation costs or developed a 
schedule for completing implementation. While the agency had made 
progress in developing schedules and costs for some components of the 
process, it had not yet estimated when it will complete all the 
required condition assessments or what they will cost. We noted that 
monitoring and assessing performance against budgets and time frames 
would be difficult without complete estimates and schedules that 
include all components of the process, including the completion of 
condition assessments.
    Second, two different operating divisions within the Park Service--
Concessions Management and Facilities Management--were developing 
separate processes for tracking and reporting deferred maintenance, 
even though both units are responsible for managing the condition of 
government-owned facilities. Because both of these units have similar 
responsibilities, it seemed reasonable that they would work together in 
a coordinated way to ensure that their efforts are not duplicative.
    Finally, the Park Service reported that about one-third of the park 
units were to complete annual condition assessments by the end of 
fiscal year 2002. We noted that this approach may be appropriate for 
meeting programmatic and financial reporting needs in the short term; 
however, without comprehensive assessments, this approach might result 
in overlooking more complex and costly problems in the long term. As a 
result, this approach could understate the extent of the deferred 
maintenance problem. Park Service officials told us that the agency 
eventually planned to conduct comprehensive assessments for all assets. 
However, at the time they had not developed a plan detailing where, 
when, and how the assessments will be done or what they will cost.
 the park service has made progress implementing its asset management 
                     process since our last report
    Although full implementation of the new asset management process is 
still years from completion, the Park Service appears to have made 
progress since our last report. Also, importantly, Park Service 
management has demonstrated its commitment to implementing this process 
by withholding some fiscal year 2003 funding from parks that are not 
complying with the agency's implementation goals.
    The agency now reports that it has completed its inventory of 
assets for all park units as well as the first round of staff training 
on the use of the facilities management software. The agency also 
contracted with a consulting firm to evaluate its training and 
implementation efforts to help ensure that the training is effective 
and that the software system is being consistently applied throughout 
the park system. The Park Service is now analyzing the firm's results 
and recommendations to determine what changes it should make for the 
next training cycle and in the ongoing implementation of the process.
    The agency is also addressing each of the issues raised in our last 
report. Specifically, the Park Service has now developed cost and 
schedule estimates for the complete implementation of the process. 
According to the schedule, the process is to be fully implemented by 
the end of fiscal year 2006, when all the comprehensive condition 
assessments are complete for all park units and deferred maintenance 
and other needs can be estimated on a reliable and consistent basis for 
assets throughout the national park system. The Park Service estimates 
now that the cost of the complete rollout and implementation, including 
performing condition assessments, will be about $91 million from fiscal 
years 1999 through 2006. Thereafter, it estimates that the annual costs 
of sustaining the process once it is fully operational will be about 
$20 million.
    In response to our concern that two different operating divisions 
within the agency--Concessions Management and Facilities Management--
were developing separate processes for maintaining government-owned 
facilities, the Park Service told us that they agreed and are committed 
to implementing a single facilities management process. According to 
the agency, it is now in the early stages of developing a plan to 
eliminate any duplication or inconsistencies between these two 
components of the organization.
    The Park Service has also made progress in performing its service-
wide facility condition assessments. According to the Park Service, it 
has completed annual condition assessments--visual inspections--on all 
but nine of the larger parks in the system.\6\ In addition, the Park 
Service is concurrently performing the more detailed, comprehensive 
condition assessments on other park units. According to the Park 
Service, the work done so far are necessary steps and reflect some of 
the best practices of the private sector in developing and implementing 
an effective facility management process.
---------------------------------------------------------------------------
    \6\ These parks include Appalachian Trail, Delaware Water Gap, 
Gateway, Golden Gate, Grand Canyon, Great Smoky Mountains, Rocky 
Mountain, Yellowstone, and Yosemite.
---------------------------------------------------------------------------
                               conclusion
    The Park Service has an awesome responsibility in taking care of 
the nation's natural, cultural and historic treasures. While it has 
unfortunately taken decades to achieve the current level of focus on 
maintaining these treasures, the Park Service apparently now has made 
substantive progress in developing and implementing a system it can use 
to determine the conditions of the assets in its portfolio and develop 
accurate and reliable estimates of its deferred maintenance needs. 
However, the agency has not yet completed the task. Determining the 
assets' conditions and their maintenance costs will require years of 
sustained commitment by the agency and by the Congress to ensure that 
the full benefits of the agency's new facility management process are 
realized.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or Members of the 
Subcommittee may have.

    Senator Thomas. Okay, thank you. Mr. Murphy, let me go back 
to the administration's idea of how much money they are going 
to put in there. How is that reflected in the President's 
budget now that's being considered?
    Mr. Murphy. Well, as I pointed out in my testimony, roughly 
$760 million is included in the President's budget for facility 
maintenance in the National Park Service and that, I think 
people often ask what that consists of, so let me just take a 
minute and explain the components there.
    That consists of our line item construction program, repair 
and rehabilitation, cyclic maintenance, and it also includes 
roads as well, and that totals the roughly $760 million 
included in the President's budget, as stated earlier in my 
testimony.
    Senator Thomas. My information is that the construction 
budget is more like $325 million.
    Mr. Murphy. That's the line item construction budget. 
That's why I was taking pains to include or explain the fact 
that the overall facility maintenance program includes line 
item construction, which you just mentioned. It includes repair 
and rehab, and it also includes the roads program as well, and 
that's how you come up with that total I just mentioned.
    Senator Thomas. What about the fee demo program?
    Mr. Murphy. That's the other component that I left out. 
That's roughly, $75 million dollars is the total that the fee 
demo program--we have asked all of our park units to 
concentrate a certain percentage of the fee demonstration 
program on facility maintenance, and that contributes about $75 
million annually to the program as well.
    Senator Thomas. Most of the emphasis there, though, has 
been for visitors' enjoyment, hasn't it? It's a little tough to 
have the visitors think about fixing the sewer.
    Mr. Murphy. Well, it certainly has, but visitor enjoyment 
certainly includes repair and rehab of visitor service 
facilities, and those kinds of facilities affect restrooms. A 
visitor certainly wouldn't be able to enjoy themselves if 
restroom facilities aren't available.
    Senator Thomas. I understand. What is the process for 
setting priorities in terms of the Park Service priorities for 
maintenance and picking up things that need to be done?
    Mr. Murphy. Well, I will just reiterate for a minute and 
maybe staff can give you a little more detail about how the 
facility assessment program works. In the past, you know, we 
really haven't had a very objective and systematic way of 
establishing priorities. So now in this new program under this 
management performance, we have what is called the asset 
priority index, and we actually have a sheet where every single 
facility asks a series of questions which allows us to then 
establish a priority for that particular facility.
    There are about 10 questions and those questions add up to 
about 40 points--I'm sorry, add up to a number of points, it's 
more than 40, and based on the number of points that that 
particular facility gets, 40 or more says that that facility is 
an extremely important asset. And then that coupled with the 
facility condition index, which I mentioned earlier, the ratio 
of what it costs to keep the facility in good condition divided 
by its current replacement values, those two things taken 
together will allow the National Park Service now to establish 
clear and defensible priorities for the maintenance of its 
various facilities throughout the National Park Service. That's 
extremely important to us because in the past we really have 
not had a systematic way of doing that.
    Currently, our priorities are mainly based upon health and 
safety, and then down from there according to the visitor----
    Senator Thomas. So if I'm a park superintendent, so I list 
these things, and then I suppose it goes to the regional 
office, and then it goes here and you make these decisions at 
each level, is that it?
    Mr. Murphy. They're reviewed at each level, after we give 
out--we give out what we call budget instructions or 
instructions on how things are to be done and prioritized. 
Right now, as I was saying, health and safety are the main 
criteria that are used to establish priorities for doing 
certain of our projects. Ultimately, though, as I explained 
with the new program, we have this objective measure, and it's 
one that's agreed upon throughout the Service, and everyone is 
trained in it, including the regional offices and including the 
Washington office. Then we come to Congress and we present it 
to you and we say look, we have a very objective system that 
we're using that's credible, it's based in data, and we would 
have agreement across the board.
    The Department of Defense uses this program now, it has 
agreements with Congress that this is the way we develop our 
budget, it's very clear and systematic, and now we would like 
to have agreement that these are our priorities and they should 
be funded as such. A much more objective approach than we've 
ever had.
    Senator Thomas. I was surprised when you said only 14 units 
had been added in the last 5 years.
    Mr. Murphy. Yes, since 1990 or so.
    Senator Thomas. I don't believe that can be quite accurate. 
It seems like we have a couple of them every week around here.
    [Laughter.]
    Mr. Murphy. These units are since 1998 through 2002, and 
they're Little Rock, Tuskegee Airmen, the Minuteman Missile, 
Rosie the Riveter, First Ladies National Historic Site, Sam 
Creek, Great Sand Dunes, Governor's Island was added, Virgin 
Islands Coral Reef----
    Senator Thomas. These aren't, they don't include Heritage 
and some of those other kinds of facilities?
    Mr. Murphy. Not the Heritage, no, because these are units 
that were actually added to the National Park System.
    Senator Thomas. Okay, thank you. Senator Akaka?
    Senator Akaka. Thank you very much, Mr. Chairman. Mr. 
Murphy, please extend my greetings to Director Maniella.
    Mr. Murphy. I will pass it along.
    Senator Akaka. I have questions about old money and new 
money, and would like to try and clarify some of the budget 
numbers you referred to in your testimony. You stated that the 
President proposed $3.84 billion in funding for non-road 
maintenance in the National Park System and $1.26 billion for 
road maintenance over the next 5 years, to address the $4.9 
billion that are estimated backlog. When I look at the budget 
numbers, however, it looks like most of that funding is 
essentially a continuation of existing funding levels.
    For example, the current fiscal year, about $730 million 
was appropriated for park construction and maintenance accounts 
excluding roads. That amount is slightly lower than the $736 
million that was appropriated for those same accounts the 
previous year, and somewhat higher than the $600 million that 
was appropriated during the last year of the previous 
administration. So, my question to you is, how much of this 
funding is new money that will help reduce the backlog deficit, 
as opposed to simply maintaining current funding levels?
    Mr. Murphy. Roughly $2 to $300 million, and the difference 
between those numbers that you cited for those 2 fiscal years, 
there is often variation in line item construction projects 
that are done. Some years, those projects are higher and some 
years they're lower, but if you look at the money, for example, 
that has gone into--let's take cyclic maintenance, which is one 
of the areas. That's increased significantly, because if you 
don't do cyclic maintenance on a regular basis, clearly, you 
are going to be adding to the maintenance backlog if you're not 
doing it the way they should be on a cyclic basis. And that has 
roughly gone from about $23 million in fiscal year 2000 and is 
now at roughly $46 million dollars and is proposed to go up to 
$57 million in fiscal year 04. That's an example.
    Our repair and rehab money has increased as well, and then 
we mentioned for example, the fee demonstration program, monies 
that we're now adding, roughly $75 million on an annual basis 
is also money that's going into the facility maintenance 
program. So roughly over those years, there is about a $2 to 
$300 million increase in terms of new money.
    Senator Akaka. Thank you. Following up on that previous 
question, the booklet that the Park Service published last 
week, I went through it yesterday. It claims that the 
administration has already spent $2.9 billion to reduce the 
backlog. Are you now claiming that the backlog has been reduced 
from $4.9 billion to $2 billion over the past years?
    Mr. Murphy. No. I wouldn't for a minute, you know, start 
down that road, because the fact of the matter is, as I stated 
earlier, the knowledge and the understanding of what the entire 
backlog is in the National Park Service will not be 
fundamentally addressed until these facility condition 
assessments are done and this program is fully in place. That's 
when we're going to know and have a very good objective 
understanding of what's going on.
    What was done at the beginning of the administration, there 
was some very, the best estimates that could have been made at 
the time possible that what we were talking about in terms of 
maintenance needs, that is, maintenance projects that weren't 
done on their normally scheduled time, that had gone undone for 
a period of time, that's basically what deferred maintenance 
is, and people made their best guess, that number was roughly 
$4.9 billion.
    The administration said well, we're going to really 
concentrate on addressing at least that much of the program 
while we do what should have been done years ago and put into 
place the right kind of facility maintenance management system 
that allows us to really understand what the nature of the 
maintenance backlog is. And so, we are saying that we have 
spent $2.9 billion addressing what we understood or understand 
the current snapshot of a backlog to have been at a particular 
point in time.
    Senator Akaka. Thank you. Mr. Hill, I would like to follow 
up on my previous question to Mr. Murphy. The administration is 
claiming to have already spent almost $3 billion on the backlog 
and claims to be on track to fully address the issue at the end 
of the 5-year funding cycle proposed by President Bush. Based 
on your reviews, are we making significant reductions in the 
backlog and will it be eliminated in the next 5 years at the 
funding levels that the President is proposing?
    Mr. Hill. Well, that's an excellent question. 
Unfortunately, there is no way to answer that question because 
of just the problems we have been talking about with this 
backlog. Until now, that backlog is a moving target, it's just 
a guesstimate, it's really not based on any type of inventory 
of the assets, the condition of those assets, the amount of 
money it's going to cost to deal with that problem. And I think 
Congress is asking the right question, if we put $2.9 billion 
into dealing with this backlog problem, why does that number 
just keep staying and floating between $4 and $6 billion.
    There is really no accountability right now in terms of the 
money that you're investing to deal with this problem versus 
the progress that's being made to correct it. And that's 
because you have an estimate that's just basically a guess on 
the part of the individuals that are running the park system. I 
think the new maintenance management system that they are 
coming in with will hopefully give us the tool that we can now 
get a handle on just what is the true extent of this backlog 
problem, so that in the future, when Congress invests money to 
deal with this problem, the Park Service will be able to come 
back and show you how that money was used and how it impacted 
that backlog.
    Senator Akaka. Thank you for your response. What concerned 
me is hearing no accountability, no real data, I hear best 
guess, and as you pointed out it's a moving target, so it makes 
it very difficult for us to try to figure this out too, but 
thank you very much.
    Mr. Murphy. Mr. Chairman, if I may have just a brief follow 
up on the no accountability statement. I understand what folks 
are saying in terms of the objectivity and the ability of not 
having a system that allows you to fundamentally measure how 
you're doing over time, but there is a level of accountability 
in the sense that these projects are real projects.
    There are fundamental changes that are taking place in the 
National Park Service over time, and you can go back in and 
look at the data and the number of projects that are done, and 
see both quantitatively and qualitatively change.
    I just wanted to make the subtle difference that what we 
don't have, sir, is a clear understanding of the total scope, 
because we haven't done all of these assessments and these 
inventories yet, but the money we're spending is accountable to 
you and we can show what it has gone to.
    Senator Thomas. Thank you. I think the hopeful thing is, as 
you pointed out earlier, that there is a process going on that 
will put us in a better position to be able to know exactly 
what the situation is.
    Mr. Murphy. That's true.
    Senator Thomas. Some of the things like business plans and 
so on that are taking place in the parks, I think are all part 
of this and that needs to be done.
    Senator.
    Senator Alexander. Thank you, Mr. Chairman. Mr. Murphy, 
when will this process be finished? When will you be able to 
come before the committee and say we have gone through this 
process and here's our 5- or 10-year maintenance plan and 
here's what it costs, here's what we can afford to do?
    Mr. Murphy. We should be able to do that by fiscal year 06, 
and right now where we are is we will have completed the 
inventories for all of the parks except for the four major at 
the end of this fiscal year, the four other parks will be 
finished at the end of the next fiscal year, and then we have 
to systematically go about putting together the facility 
condition indexes with the asset priority indexes, and putting 
together a plan.
    Senator Alexander. Okay.
    Mr. Murphy. So it will be 2006.
    Senator Alexander. Will you separate road construction from 
everything else?
    Mr. Murphy. Road construction is now separated. In other 
words, our roads program has a roads condition index that we 
do, and we work with Federal Highways on putting that together 
and it is separated. The numbers I talked about today did 
include the roads, but it is part of this program too, and 
actually it's up and running right now.
    Senator Alexander. Well, your new proposal, which I 
applaud, is to go up to a $300 million dollar figure if 
Congress approves it this year, but then will there be 
additional general appropriation funds for park roads to be 
spent, or is that the whole amount?
    Mr. Murphy. That would be the whole amount, it would raise 
the numbers up to $300 million. We're roughly getting $165 
million right now, and so it would be increased to $300 
million. What's really important about that program is that 
we're working with Federal Highways really to expedite the 
expenditure of that money so that we can bring these roads up 
to good condition expeditiously.
    For example, the National Park Service usually does 
individual roads projects with individual parks, and one of the 
things that we have already explored and entered into with 
Federal Highways is to bundle these road projects together so 
that they can be bid on by contractors, and you can get 
economies out of it and also get these projects done quicker 
than they would be done individually.
    Senator Alexander. I applaud that, and I for one want to 
work within the Senate to try to see that we stick to the $300 
million figure, because that helps make the idea of seriously 
addressing the non-road maintenance issues realistic, when 10 
or 15 years ago there wasn't any gas tax money, as I remember, 
going for park roads, or not much, and this basically frees a 
lot of money that otherwise would be spent on the roads for 
other purposes.
    Let me ask you, one of the President's commitments as I 
remember was to fully fund the park backlog problem, and I 
applaud that. Another was to fully fund the Land and Water 
Conservation Fund. Can you explain to me where we are on that 
and where the administration hopes to go, and particularly talk 
about why some of the money that you count for Land and Water 
Conservation Fund doesn't go to land acquisition but goes to 
other purposes?
    Mr. Murphy. Let me talk about one of the things that has 
been coming up in this committee, land acquisition, and the 
National Park Service has provided testimony on a number of 
occasions that we are wanting to slow the growth, for example, 
of the National Park Service so that we can concentrate on some 
of the current needs of the National Park Service. And so 
therefore, the question----
    Senator Alexander. Well, land and water also includes the 
State sites, so if you don't want to spend it federally, what's 
your attitude toward spending it on the State side?
    Mr. Murphy. Well, I think it's important to have funds 
provided for the State side of the Land and Water Conservation 
Fund, and the administration continues to be committed to the 
State side of the Land and Water Conservation Fund. Some of the 
funding in the Land and Water Conservation Fund has gone to 
projects such as the cooperative conservation initiative which 
the administration has brought forth, which allows communities 
to participate in the conservation of parks locally, which I 
think is a good idea.
    And State side, of course, has been roughly between $100 
and $150 million, depending on how Congress has acted on the 
President's budget, but the Administration remains committed to 
the State side of the Land and Water Conservation Fund. I think 
it's extremely important to continue to provide those kinds of 
funds for outdoor recreation.
    Senator Alexander. Help me with my figures, please, if I've 
got them wrong. The full funding of the Land Water Conservation 
Fund would be $900 million a year equally divided, Federal and 
State; is that right?
    Mr. Murphy. Yes.
    Senator Alexander. Is it the administration's position that 
there ought to be full funding of the $900 million equally 
divided between Federal and the States?
    Mr. Murphy. Well, I know the administration has looked upon 
the Land and Water Conservation Fund as an opportunity to put 
together programs that provide money, both Federal and State, 
in various projects, some of them new projects, that accomplish 
the goals of the Land and Water Conservation Fund. I know the 
administration has made a commitment to fully funding the Land 
and Water Conservation Fund, and I think that commitment, as 
far as I know, remains.
    Senator Alexander. Good. I want to encourage that 
commitment and be supportive of it. Thank you, Mr. Chairman.
    Senator Thomas. Thank you. It's going to be kind of 
interesting when you talk about the highway fund. As you know, 
there is not as much money in that fund as there was last time 
because of 11 September and so there is going to be competition 
for those dollars as there was now. So, there is direct funding 
from the highway fund, however, for park highways; is that 
correct?
    Mr. Murphy. That's correct.
    Senator Thomas. So that is not part of what we're talking 
about here in terms of having a budget for the parks?
    Mr. Murphy. Well, it is in the sense that we're getting the 
$165 million from Federal Highways now, and this new proposal 
that we offered provided $135 million.
    Senator Thomas. Perhaps.
    Mr. Murphy. Yes, that's the proposal.
    Senator Thomas. But if the highway fund does not have it, 
we will see. Okay.
    What about new construction? In terms of the dollars that 
we are talking about here that are available for maintenance, 
how much of that goes to new--how do you divide that between 
new construction and maintenance of existing construction?
    Mr. Murphy. Well, the new construction programs, again, all 
of the funding that we are committing in the National Park 
Service is prioritized based on health and safety needs, the 
needs for rehabilitating worn out facilities, and that's sort 
of where the emphasis is. And when we get new park units in, 
some of that money is budgeted for new facilities that comes 
before Congress or gets proposed in the President's budget. But 
the emphasis is on maintaining those facilities that we do 
have. We go through a prioritization process for available 
funding, which gives priorities to existing facilities and to 
health and safety.
    Senator Thomas. But there is a difference between routine 
maintenance and new construction.
    Mr. Murphy. Yes.
    Senator Thomas. And so when you're talking about having 
over time $4.9 billion to deal with maintenance, are you 
talking about new construction as well in there?
    Mr. Murphy. No, not generally, we are not talking about new 
construction. When we do our line item construction programs, 
what we're trying to do in those programs is look at facilities 
that are in dire need of repair, and facilities that meet the 
criteria process that we've established within the National 
Park Service and the Department of the Interior for determining 
what's going to go into those programs. And in our 
prioritization, we don't give as high priority to new 
construction based on our need to take care of what we have.
    Senator Thomas. Mr. Hill, how do you, or what issues do you 
identify as you talk about the operational portion, the 
management portion, what do you contribute the maintenance 
backlog to primarily, why is that there?
    Mr. Hill. There is a number of reasons that it was created. 
First of all, obviously it's a huge system and many of the 
facilities in that system are aging. You have a high visitation 
volume, visitors are using those facilities. And then clearly, 
the operations and maintenance budget over the years has not 
kept pace with the maintenance needs, and that's how the 
backlog was created. And then it's compounded when the size of 
the system continued to increase. I mean, the more parks you 
add to the system, the more assets you now have in the system, 
the more assets you need to maintain. So, it's a problem that 
has been building over the years and it just has to be dealt 
with.
    Senator Thomas. Well, of course, you talk about being used 
and being old, we know that's the case but nevertheless, that's 
true with anybody's facilities, so in the management process, 
you have to set aside a certain amount of dollars for 
maintenance as opposed to operations. That's not a new concept, 
but apparently it hasn't been done in this case.
    Mr. Hill. It has not been done well in the past. Here 
again, a problem that has already been alluded to, the Park 
Service has not had a good handle on the problem. In the past 
they have had an inconsistent definition of what maintenance 
was, park units were trying to use a different definition, so 
you don't have good data, you don't have a good inventory of 
what your assets are, you don't know what the conditions of 
those assets are, and it compounds and snowballs into the 
problem that you have now.
    Senator Thomas. Mr. Murphy, do you believe that the 
maintenance difficulty has resulted in reduction of other 
facilities such as security, such as employees, other 
operational problems? Some people say well, you haven't done 
much of what you should be doing over in another area because 
of this. Has that had an impact?
    Mr. Murphy. I think when you're dealing with a situation 
where you have limited resources and limited capacity, there is 
always some effect of one system on another, but then it 
becomes a matter of management and prioritization, so we try to 
manage and prioritize in such a way that, for example, we don't 
compromise health and safety, and critical needs in the 
National Park Service, while making some clear management 
priority decisions about what we are going to focus on. And in 
this case where we have all these facilities that haven't been 
taken care of in the past, it's very important for us to 
utilize the resources that we do have for taking care of our 
maintenance needs and beginning to address this very severe 
maintenance backlog.
    And so, we have managed in such a way that we don't impact, 
for example, security, our law enforcements needs in these 
particular instances. And we try to augment where we can by 
putting in additional funding so we don't get into this robbing 
Peter to pay Paul situation.
    But clearly, it has been our position that we need to slow 
the growth of the National Park Service so that we don't have a 
situation where new units coming in, adding new facilities on 
while the maintenance budget is not increasing will further 
exacerbate the problem that we're trying to resolve.
    Senator Thomas. That's a tough issue. Senator, do you have 
further questions?
    Senator Akaka. No questions.
    Senator Thomas. Senator Alexander.
    Senator Alexander. Just one. Help me understand where 
visitation fits into your, the process you're establishing. We 
all--I will speak for myself. I know more about the Great Smoky 
Mountains National Park than I do about others. I know it had 9 
or 10 million visitors a year, three times what any other park 
would have, I think that's about right. I know that when I go 
hiking in it, a lot of my friends are up there doing volunteer 
trail maintenance, and that's a good thing, but they tell me 
that maybe half the trail maintenance is done by volunteers.
    So, are you taking into account when you develop this 
process--well, I'm sure you are. How are you taking into 
account as you develop this process the fact that some of our 
parks and other National Park facilities are extremely heavily 
used and have more wear, more maintenance, and deserve a higher 
legal of funding for that reason?
    Mr. Murphy. It's a very good question. First of all, parks 
that are highly used and have greater wear and tear on those 
facilities, this program in our facilities maintenance 
management system actually captures that in an objective way. 
We will be able to tell if those facilities are wearing out, 
including the trails that you mentioned, which are included as 
a category in our facility assessment program, so that will be 
captured, where we have more trails, more wear and tear, that 
easily gets taken into consideration and captured in a very 
objective way.
    In fact, Great Smoky Mountains is one of the four parks 
which we are spending more time on, that's why it won't be 
completed until 2004, for the very reason that you mentioned, 
more visitation, more facilities, greater wear and tear, it is 
going to take a little bit longer to do those kinds of 
assessments. This is a very objective system that takes that 
into consideration right up front.
    Senator Alexander. Thank you.
    Senator Thomas. Thank you. I'm more familiar with 
Yellowstone, and I think that's a good example of some of the 
things that have been done, $22 million spent in the past 5 
years to do part of the backlog on water and wastewater 
treatment there, $6.9 million research center at Gardner. $48 
million spent on paving 49 percent of the park's 300 and some 
miles, which is good. So you know, we're making some progress.
    What about the security that you mentioned? Does Homeland 
Security, do you get any funding from Homeland Security to do 
things like the border in Mexico and so on?
    Mr. Murphy. We're in discussions currently about that. The 
answer right now is no. And we hope to continue to work with 
Homeland Security to make it clear what our responsibilities 
are, what Border Patrol's responsibilities happen to be, and to 
make sure that we're coordinated in our efforts. But currently 
we are not receiving any funding from Homeland Security for 
those issues.
    Senator Thomas. Gentlemen, we thank you. I think the most 
encouraging thing is that there is apparently a system in place 
that's going to be able to put us in a better position to know 
where we are and be able to manage more towards those needs, so 
we appreciate that very much, and we appreciate you being here. 
Thank you.
    Okay. We will have our second panel, Mr. Eric Dillinger, 
program manager, Carter and Burgess, Fort Worth, Texas; Mr. 
Curtis Cornelssen, director, Hospitality and Leisure Group, 
Price-waterhouseCoopers, Boston; and Tom Kiernan, president, 
National Parks Conservation Association, who I understand had a 
little bicycle difficulty.
    Mr. Kiernan. Yes, sir, need more bike paths.
    Senator Thomas. I hope you're doing well.
    Okay. Let's start with Mr. Dillinger.

         STATEMENT OF ERIC DILLINGER, VICE PRESIDENT, 
            CARTER AND BURGESS, INC., FORT WORTH, TX

    Mr. Dillinger. I am pleased to be here, Mr. Chairman, and 
have this opportunity to testify and to give you information on 
some of the issues you identified. In particular, I would like 
to focus my comments on the maintenance backlog issue, and 
slightly on the personnel issue, and focus in those two areas. 
I have prepared some testimony that I ask that you include in 
the record as well.
    Senator Thomas. It will be included.
    Mr. Dillinger. A lot of my background on this issue comes 
from working in 1998 and previously on a publication that the 
Federal Facilities Council developed called ``Stewardship of 
Federal Facilities,'' and the focus of that document was to 
look at some of the questions that the subcommittee has asked 
with respect to, are we caring for our facilities 
appropriately, where did this current maintenance backlog issue 
come from, and that is truly the test for the Congress.
    In particular, and more recently, the GAO has provided two 
documents that I think are key to this, in their High Risk 
Series. One focused on the risk with respect to intellectual 
capital, smarts, if you will, that the Government has, and the 
second one focused on facilities. And I would suggest that the 
intersection of those two issues, well-trained individuals 
managing public facilities, is a key to your questions. So it 
is very important to have quality folks involved in this 
process for the process to succeed, because that process 
happens every day at the location in the individual parks. 
That's where the maintenance occurs. So from an accountability 
standpoint, quality staff at that location becomes key, so you 
focus on people and facilities, it's the intersection of those 
two that you have to have your sights on, if you will.
    The second issue that we have identified extensively, and I 
think I have heard the committee discuss, and I want to put it 
in real basic terms. The chairman used the analogy of the 
vehicle, maintaining a car, and the facilities are much like 
having a fleet of vehicles, and deferred maintenance represents 
the case when we didn't have time to rotate and balance the 
tires and we continuously replaced tires prematurely because we 
didn't have the opportunity to rotate and balance the tires, 
and because of this tires might be required to be replaced, and 
that would relate to our maintenance backlog. Our challenge 
becomes to shift out of that mode and to start to figure out 
how to rotate and balance the tires so they don't wear out 
prematurely.
    Additionally, it's recognized that tires have a defined 
life, that we buy a new set when they reach 40,000 miles, so at 
the end of that 40,000 miles, we should not act overly 
surprised when we need a new set. That seems reasonable.
    What we found in the Stewardship of Federal Facilities work 
and the work that we've done later is that while we typically 
recommend that agencies receive and spend about 2 to 4 percent 
of their assets value, what Mr. Murphy referred to as current 
replacement value, we rarely see that occur. So the genesis of 
the maintenance backlog is in the lack of annual maintenance 
expenditures, which seems obvious but may be a real important 
concept to get out briefly.
    The maintenance backlog will continue to grow as we fail to 
fund annual maintenance adequately. That is true in every 
agency and in every public sector organization where there's 
insufficient funding. If we focus on the maintenance backlog, 
we're focusing on how many things have occurred, but not on how 
we stem the inflow. So those business practices in most 
organizations that are most successful on this issue in the 
private and the public sector combine removing or decreasing 
the maintenance backlog with stemming the inflow from future 
events. If we focus solely on the backlog, we will continue to 
have an inflow.
    Some of the questions I think have come up are, what will 
the backlog look like in 5 years? Well, it will look like what 
we did, plus whatever occurred between now and then. So, the 
ability to draw it down to zero is tied to the ability to fund 
the maintenance appropriately so that we stem the inflow, and 
then to accomplish a maintenance program, so that we stem the 
inflow, or else our maintenance backlog will continue to shift 
and at any point in time it's just a static estimate, if you 
will, of what's broke. Tomorrow, additional things will occur 
and it will shift once again.
    So, I think that's an important consideration as you look 
at the mix, is not just what we're spending on maintenance 
backlog, but are we focusing enough dollars on annual 
maintenance so that we draw down the inflow of maintenance 
backlog in future events. And in that respect we can start to 
preserve the assets and get ahead of the game. If the inflow of 
maintenance backlog exceeds the expenditures, the backlog will 
continue to grow. That's the fundamental piece that I think 
needs to be addressed as you look at those pieces. With that, I 
would be happy to answer any questions, and I appreciate this 
opportunity.
    [The prepared statement of Mr. Dillinger follows:]
        Prepared Statement of Eric Dillinger, Program Manager, 
                Carter and Burgess, Inc., Fort Worth, TX
    Good afternoon, Mr. Chairman and members of the Committee.
    My name is Eric Dillinger. I am the Vice President for Facility 
Management Services at Carter & Burgess, Inc. and one of the Committee 
Members responsible for the development of the 1998 National Research 
Council publication ``Stewardship of Federal Facilities'' as well as a 
number of other research efforts and publications focused on the 
subject of deferred maintenance, maintenance backlog, and total cost of 
ownership.
    I am happy to have the opportunity to testify before the 
Subcommittee on National Parks and intend to focus my comments on two 
of the areas identified; maintenance backlog, and the personnel 
deficit.
    Stewardship of Public Assets (Buildings and Infrastructure) is a 
critical issue in today's resource constrained environment and one that 
appears to have engaged every public sector entity. Recent efforts by 
the General Accounting Office including their ``High Risk Series'' have 
clearly indicated the important challenges facing the public sector.
    The challenge to provide appropriate Stewardship is further 
compounded by limited personnel and resources as the General Accounting 
Office identified in another one of the ``High Risk Series'' 
publications.
    I believe the combination of those two issues identifies one of the 
most significant issues facing every public agency, the availability of 
personnel and resources to provide appropriate Stewardship to Public 
Assets.
    The issue of maintenance backlog within Federal Government has been 
widely discussed. The 1998 National Research Council committee found 
that Federal government processes and practices are generally not 
structured to provide effective accountability for the stewardship of 
federal facilities. Congress, the Office of Management and Budget, 
federal agency senior executives, facilities program managers, and 
field staff all make decisions that affect maintenance and repair 
programs. Because decision-making authority is so widely dispersed, no 
single entity can be held responsible or accountable for the results.
    Inadequate funding for the maintenance and repair of public 
buildings at all levels of government and academia has been a long-
standing and well-documented problem. While reliable and consistent 
expenditure data has been difficult to identify due to variations in 
terminology and expenditure strategies, agencies that briefed the 
Committee consistently reported that they received less than 2% of the 
aggregate current replacement value of their inventory. This level of 
funding is below the 2-4% guideline that is widely quoted in facilities 
management literature.
    Several factors contribute to the lack of adequate funding. 
Maintenance and repair expenditures generally have less visible or less 
measurable benefits than other operating programs. There is the tacit 
assumption that maintenance and repair can always be deferred one more 
year or 5 more years in favor of more visible projects.
    However, in the short term, deferring maintenance diminishes the 
quality of building services. In the long term, it can lead to a 
shorter service life and reduced asset value.
    The scope of the problem is evident in the magnitude of deferred 
maintenance backlogs reported by agencies. The costs of eliminating 
these backlogs are estimated to be in the tens of billions of dollars. 
The total dollar amounts and the methods for arriving at these figures 
can be argued. However, the existence of deferred maintenance implies 
that the quality or reliability of service provided by the 
infrastructure is less than it should be to adequately serve the 
public.
    Beyond the 1998 NRC committee's efforts, more recent investigations 
have begun to focus their attention not only on the current maintenance 
backlog, but also on an organization's strategy for limiting the growth 
of future backlog. This shift in focus and strategy has come in part 
over the realization that the root of the problem lays not in the 
backlog number, but in the effective management and mitigation of 
potential future backlog through appropriate maintenance and repair 
efforts.
    I believe this issue is at least as significant, if not more so 
than the current backlog as it represents important decisions and 
management issues that have the ability to slow the growth of future 
backlog concurrent with addressing the existing backlog.
    Land management agencies face a particularly difficult challenge 
due to the mix of remote location, historical nature, and age of their 
assets. The availability and cost associated with training and 
maintaining the types of expertise required for good Stewardship in 
such remote locations is considerably more challenging than similar 
operations and maintenance requirements in an urban setting.
    In summary, I believe you have identified several of the key issues 
facing Federal property managers but more importantly linked a key 
concern between the availability of personnel and the Stewardship 
requirements inherent in managing some of the Federal Governments most 
well known, and significant assets.
    Thank you for the opportunity to present testimony to the 
Subcommittee on such an important issue.

    Senator Thomas. Thank you very much.
    Mr. Cornelssen.

   STATEMENT OF CURTIS E. CORNELSSEN, DIRECTOR, HOSPITALITY 
       LEISURE GROUP, PRICEWATERHOUSECOOPERS, BOSTON, MA

    Mr. Cornelssen. Thank you, Mr. Chairman.
    Mr. Chairman and distinguished members of the committee, I 
want to thank you for the opportunity to present today 
regarding maintenance backlog and related matters in our 
National Parks. I am Curt Cornelssen, director of the 
Hospitality Leisure Group at PricewaterhouseCoopers, also 
responsible for our work with the National Park Service on 
their concessions program. Over the next few minutes I would 
like to provide you with our perspectives on the maintenance 
backlogs in the context of the concession operations and 
facilities. This is where I have the most knowledge and 
expertise and that's where we ought to focus, so I will not 
address the land acquisition factors during my testimony.
    Prior to presenting the approach that we're pursuing with 
the Park Service owned concessions facilities, I wanted just to 
make sure we pointed out a couple important facts. First of 
all, concession facilities are government-owned assets 
regardless of whether the concessioner has a possessory 
interest or leaseholds on the premises. I don't know, Mr. 
Chairman, but I think there has been some misunderstanding on 
that issue. These are government-owned assets.
    Certainly, many of these assets are historic and are true 
icons of the parks in which they reside, such as the Old 
Faithful Inn at Yellowstone, and Ahwahnee Hotel at Yosemite. 
Unlike most Park Service assets, however, these facilities are 
operated and maintained by concessioners under a contractual 
relationship. Another way of looking at it is that the Park 
Service has outsourced operations and maintenance of these 
assets to the private sector. Lastly, it's important to note 
that in many of the large parks, concession improvements 
represent a significant if not predominant proportion of the 
total asset base.
    In establishing an asset management regimen for Park 
Service concession facilities based on existing policy, we 
first work to ensure that the first priority for financial 
return is asset reinvestment. We want the money going back into 
the assets. In addition, per the law, we must ensure a fair and 
reasonable return to the concessioners. And these two 
priorities are not mutually exclusive, as concessioners rely on 
these assets for their profitability and investment returns. I 
would like to provide a quick synopsis of our approach for 
concessions asset management.
    We assembled a multi-disciplined team of experts to tackle 
concession assets. This includes engineers from Carter Burgess, 
appraisers, accountants and other financial and business 
experts. We start by conducting through asset inventories and 
condition assessments. This includes detailed inspections and 
analysis of every building or improvement down to the component 
level. From this, we are able to develop replacement cost 
values as well as the amount and type of deferred maintenance 
that exists. With our engineers, we then develop a life-cycle 
asset management plan for all facilities. We evaluate the cost 
requirements for this plan using both engineering and financial 
based budgeting approaches. If this group of engineers tell us 
they need the money, that doesn't mean they necessarily get it, 
we have to look at it from a financial perspective as well.
    Our team then establishes facility and operating standards 
and inserts these requirements into the prospectus and RFPs for 
all bidders.
    Lastly, we establish ongoing asset monitoring and oversight 
procedures to ensure that all facilities are well maintained 
and properly capitalized during the term of the new contract, 
and this is typically 10 to 15 years. Importantly, we must 
ensure that the proposed plan is realistic and affordable. 
Otherwise, we won't have any bidders for the new contract if 
this is not financially sound.
    The approach presented above follows industry best 
practices in the public and private sectors, the same approach 
that prospective hospitality owners follow when they conduct 
due diligence for an acquisition or new contract.
    Thus far, the team has completed this work for 18 major 
contracts at 15 national parks. In general, we are finding that 
the facilities are being maintained with reasonable standards. 
Nonetheless, most concession assets with or without PI, have 
some level of deferred maintenance. We are, however, able to 
structure plans that address this maintenance backlog as well 
as ensure that assets are aggressively maintained during the 
new contract term. As such, the Park Service is addressing all 
deferred maintenance in the new concession contracts. Some 
contracts will require creative funding and management 
strategies due to the significant costs of managing large asset 
bases. We are working diligently with both the Park Service and 
concessioners to enhance and sustain these high quality 
concession assets for visitors and for the American public.
    Mr. Chairman, thank you once again for the opportunity to 
testify. I'm happy to answer any questions that you or the 
committee members may have.
    [The prepared statement of Mr. Cornelssen follows:]
         Prepared Statement of Curtis E. Cornelssen, Director, 
           Hospitality Leisure Group, PricewaterhouseCoopers
    Mr. Chairman and distinguished members of the Committee, I want to 
thank you for the opportunity to present today regarding the 
maintenance backlog and related matters at our National Parks. I am 
Curt Cornelssen, Director in the Hospitality and Leisure Consulting 
Group at PricewaterhouseCoopers LLP. I am also responsible for our work 
with the National Park Service on their concessions program.
    Over the next few minutes, I would like to provide you with our 
perspectives on the NPS maintenance backlog in the context of the 
concession operations and facilities, as this is the are where I have 
the most knowledge and expertise. I will not address the land 
acquisition backlog during the course of my testimony.
    Prior to presenting the approach that we are pursuing with the NPS 
on their concessions facilities, I would like to point out a few 
important facts. First of all, concessions facilities are government 
owned assets, regardless of whether the concessioner has a compensable 
interest such as Possessory Interest (PI) or Leasehold Surrender 
Interest (LSI). Secondly, many of these assets are historic and are 
true icons of the parks in which they reside (for example the Old 
Faithful Inn at Yellowstone or the Ahwahnee Hotel at Yosemite). Unlike 
most NPS assets, however, these facilities are operated and maintained 
by concessioners under a contractual relationship. Another way of 
looking at it is that the NPS has outsourced operations and maintenance 
of these assets to a private sector partner. Lastly, it is important to 
note that in many of our large parks, the concession improvements 
represent a significant if not predominant proportion of the total 
asset base.
    In establishing an asset management regimen for NPS concession 
facilities, and based on existing policy, we work to ensure that the 
first priority for financial return is asset reinvestment. In addition, 
per the law, we must ensure a fair and reasonable return to the 
concessioners. These two priorities are not mutually exclusive as 
concessioners rely on high quality assets for their profitability and 
investment returns. I would now like to provide a brief synopsis of our 
approach for concessions asset management.
    PwC has assembled a multi-disciplined team of experts to tackle 
concessions assets. This includes engineers from Carter-Burgess, 
appraisers, accountants and other financial/business experts. We start 
by conducting thorough asset inventories and condition assessments. 
This includes detailed inspections and analyses of every building or 
improvement down to the component level. From this information, we are 
able to develop replacement cost values, as well as the amount and type 
of deferred maintenance that exists. With our engineers, we then 
develop a complete life-cycle asset management plan for all facilities. 
We evaluate the cost requirements for this plan using both engineering 
and financial based budgeting approaches. Our team then establishes 
facility and operating standards and inserts these requirements into 
the prospectus for all bidders. Lastly, we establish ongoing asset 
monitoring and oversight procedures to ensure that all facilities are 
well maintained and properly capitalized during the term of the new 
contract (typically 10-15 years). Importantly, we must ensure that the 
proposed plan is realistic and affordable. Otherwise, we will not have 
any bidders for the new contract.
    The approach presented above follows industry best practices in the 
public and private sectors. This is the same approach that prospective 
hospitality industry owners follow when they conduct ``due diligence'' 
for an acquisition or for a new contract.
    Thus far, our team has completed this work for 18 major contracts 
at 15 national parks. In general, we are finding that the facilities 
are being maintained to reasonable standards. Nonetheless, most 
concession assets (with or without PI) have some level of deferred 
maintenance. We are, however, able to structure plans that address this 
maintenance backlog as well as ensure that assets are aggressively 
maintained during the new contract terms. As such, NPS is addressing 
all deferred maintenance in the new concession contracts. Some 
contracts will require creative funding and management strategies, due 
to the significant costs of managing large asset bases. We are working 
diligently with both the NPS and concessioners to enhance and sustain 
high quality concession assets for visitors and the American public.
    Mr. Chairman, thank you once again for the opportunity to testify. 
I would be happy to answer any questions that you or the Committee 
members may have.

    Senator Thomas. Thank you very much.
    Mr. Kiernan.

          STATEMENT OF THOMAS C. KIERNAN, PRESIDENT, 
            NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Kiernan. Mr. Chairman and Senator Akaka, thank you for 
the opportunity to testify before you today. I am Tom Kiernan, 
president of the National Parks Conservation Association. We 
are America's only nonprofit advocacy group dedicate to 
protecting and enhancing America's National Park System. We 
were founded in 1919, 3 years after the Park Service itself was 
established, and now have over 350,000 members throughout the 
country.
    I have 3 broad points I would like to make, first on the 
backlog, if I may, which as I think everyone has mentioned, has 
accumulated over time and is thus neither a Republican nor a 
Democratic issue. Both sides of the aisle can share in 
responsibility for the creation of the backlog, and hopefully 
share in the credit for its coming reduction.
    Second, this maintenance backlog of road and building 
projects is only really one component of the total backlog that 
our national parks face. There is a very important and 
significant backlog of natural resource protection projects as 
well. For example, Shenandoah National Park, 20 percent of the 
plant and animal species are non-native invasive species in the 
park and need to be removed. That is as well a backlog project, 
if you will, but falls in the natural resource category, not a 
road or building category. Similarly, now in the Great Smokies, 
we know 10,000 species of plant and animals; we estimate there 
are probably about 100,000 species down in the park as well, 
and that is a backlog, an intellectual backlog and we need to 
invest similarly in that significant one-time project to 
complete the inventory in that park and similarly in other 
parks. So the backlog truly is more than just roads and 
buildings, there's also a natural resource knowledge backlog in 
the parks.
    The third broad point I would like to make about the 
backlog is that eliminating it will require a multi-pronged 
strategy and if I can, I would like to just highlight four 
components of that recommended multi-pronged strategy. First of 
all is the need for a better inventory methodology, and we 
would like to praise the administration's effort that Mr. 
Murphy articulated. That does seem to be a good solid process 
that they are putting in place and we praise them for it.
    Secondly, in addition to the inventory, there needs to be 
significant non-congressional funding to help address the 
backlog, and we would like to recognize the chairman and this 
committee for making the effort to make permanent the fee 
demonstration program. We see that as a strategy long term for 
helping address the backlog.
    The third component is a significant amount of new 
congressional funding. In our opinion, the administration has 
mistakenly tried to implement the President's pledge of 
eliminating the Maintenance and Resource Protection Act, while 
only contributing $371 million of additional new total funding 
over the last 3 years. So while the backlog is $4.9 billion, we 
calculate there has only been an additional $371 million of 
funding over the last 3 years to address and reduce that 
backlog.
    The last component that we believe needs to be part of this 
four-pronged strategy is an increase in the operating budget, 
and I would like to echo Mr. Dillinger's comment that one of 
the best, if not the best means of long-term reducing the 
backlog is by increasing the annual operating support for our 
national parks. His analogy on rotating the tires, so to speak, 
is in the annual operating budget of the parks where the 
funding is provided for rotating the tires, so to speak.
    We would also like to recognize, again, the chairman's 
work, and Senator Akaka and others for recognizing and working 
to reduce the annual operating funding shortfall that we 
estimate at roughly 32 percent.
    On land acquisition, we would like to make 3 points, if I 
may. We are aware of the concern that many have expressed that 
by adding new parks and new lands to the park system, we are 
adding to the long-term cost requirements of the parks. I would 
like to put forward somewhat of a counterpoint, that without 
the historic growth and diversification of the park system, we 
would not now have the degree of support from the American 
public. The system has succeeded, the National Park System has 
succeeded because it has grown and because it continues to 
strive fully to represent the increasingly diverse values that 
Americans represent.
    Secondly, and quite specifically, this country is becoming 
increasingly diverse. Our National Park System must grow to 
reflect the history and stories of all Americans.
    The last reason to look at continued support for land 
acquisition is the significant problem our parks face with in-
holdings. There's a significant number of in-holdings inside 
our national parks where we have willing sellers that would 
like to sell, and that by selling to the Federal Government, we 
can obviously improve the ecological integrity of the park but 
also reduce some of the management burdens and challenges that 
the superintendent faces with that in-holding.
    Lastly, if I may mention on the personnel deficit that was 
referenced at the beginning, this is as well a result of the 
annual operating shortfall of 32 percent that we have 
calculated. There are a whole series of anecdotes that are in 
our written testimony that I will not repeat that lead to 
shortfalls in the interpretation and resource protective work, 
as a result of the personnel deficit.
    Thank you very much for the opportunity to testify this 
morning.
    [The prepared statement of Mr. Kiernan follows:]
          Prepared Statement of Thomas C. Kiernan, President, 
                National Parks Conservation Association
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to testify before you today. I am Tom Kiernan, president of 
the National Parks Conservation Association. NPCA is America's only 
national private, nonprofit advocacy organization dedicated solely to 
protecting, preserving, and enhancing the National Park System. NPCA 
was founded in 1919 and today has approximately 300,000 members across 
the country that care deeply about the well being of our national 
parks.
    We greatly appreciate you focusing on the backlog of unmet needs 
throughout our national park system. You have asked that we discuss the 
maintenance backlog, land acquisition backlog, and deficit in personnel 
within the National Park System. In addition, you have asked that we 
explore the interaction of these issues and discuss whether certain 
parts of the system appear more affected by them than others.
    I want to start by thanking you, Chairman Thomas, for helping to 
champion the bipartisan effort in the Senate to increase operational 
funding for the National Park Service. NPCA appreciates your leadership 
on this issue, working in a bipartisan fashion with senators Graham, 
Akaka, Smith, Bingaman, and others. Addressing the operational 
shortfalls in our parks is critical to both avoiding backlogs of the 
future and to ensuring the Park Service meets its mission to protect 
park resources and provide visitors to our national parks with the best 
possible memories and experiences.
                          maintenance backlog
    Managing the National Park Service is an enormous undertaking. The 
388 units that comprise the national park system include more than 
30,000 structures and 80 million artifacts. The Park Service's 
portfolio includes 8,000 miles of roads, 1,500 bridges, 5,385 housing 
units, 1,500 water and wastewater systems, 200 radio systems, 400 dams 
and more than 200 solid waste operations. These items are all 
integrated into one of the most awe-inspiring repositories of our 
collective American heritage that exists.
    There is no question that the maintenance backlog in our national 
parks is a problem. According to the National Park Service's recent 
report, Partnering & Managing for Excellence: ``This backlog has had a 
profound effect on the visitor experience and the public's ability to 
appreciate and enjoy our national parks' natural, historic, and 
cultural wonders.''
    To better understand the backlog, one must understand its root 
cause--lack of sufficient funding for park operations and maintenance. 
It is also important to note that backlog is not a static term, but 
rather the backlog ledger is constantly changing as some maintenance 
needs are met and others arise. Additionally, effectively addressing 
the backlog requires an understanding about the condition of our parks. 
Historically, the Park Service and the rest of us have been ill 
equipped to know the extent of the maintenance needs in parks. 
According to the January 2003 GAO report Major Management Challenges 
and Program Risks: Department of the Interior: ``Despite the importance 
of its maintenance program, the Park Service has yet to accurately 
assess or define the scope of its maintenance needs . . . the agency 
does not have an accurate inventory of the assets that need to be 
maintained, nor accurate data on the condition of these assets.''
    Since GAO issued its report, the Park Service has been engaged in a 
multi-year effort to develop an accurate baseline of backlog needs. 
They appear to be making progress with this important first step, and 
we are encouraged by reports of their new state-of-art system to 
inventory, monitor and prioritize backlog maintenance. This will be 
enormously helpful to the parks, Congress, and the public in better 
understanding and addressing the maintenance backlog in the parks. We 
also understand that the Park Service has launched an aggressive 
training and implementation plan to inventory and assess the condition 
of park facilities. The Park Service's recently released document 
entitled Partnering and Managing for Excellence, though it paints an 
overly rosy picture of the state of our national parks, reports that 
assessments at 125 parks were completed by December of 2002, and that 
by the end of FY 2003 assessments will be completed at all but four of 
the largest parks. We encourage the Park Service to share each 
assessment as it is completed.
    The park maintenance backlog knows no party line. It has 
accumulated through Democratic and Republican administrations and 
congresses. We have been encouraged by the bipartisan support for 
addressing the operational funding shortfall for the parks, the root 
cause of the backlog. We also believe it to be critically important to 
have a highly transparent process for identifying the current unfunded 
backlog and how its dollar value compares with prior estimates, so we 
can collectively determine how to address the problem once and for all.
    As you know, in 1998 the General Accounting Office estimated the 
maintenance backlog to be approximately $6.1 billion based on Park 
Service data from 1993. However, $1.2 billion of this estimate was for 
the construction of new facilities, leaving approximately $4.9 billion 
for existing facility maintenance and construction. GAO indicated in 
January of this year that the Department of Interior estimated the 
backlog to be between $4.1 and $6.8 billion.
    Clearly, addressing the backlog will require a significant increase 
in the rate of investment for the programs that comprise it-facility 
maintenance and construction-as well as more realistic annual 
operational funding for the Park Service to prevent additional backlog 
from accumulating. We had high hopes at the beginning of this 
administration, but have been disappointed by the administration's 
failure to come close to increasing the rate of investment to the 
extent necessary to significantly reduce and ultimately eliminate the 
backlog.
    Nonetheless, we gave the administration credit for a number of its 
funding-related initiatives in our recent evaluation of their efforts. 
One area where the administration deserves praise is for its proposed 
increase for the park roads and parkways program. The administration's 
proposed transportation reauthorization bill would increase funding for 
park roads from $165 million to $300 million in fiscal year 2004, $310 
million in 2005 and $320 million annually thereafter. The proposal 
would also dedicate $30 million for alternative transportation, but 
makes several agencies eligible for the funds, leaving alternative 
transportation funds substantially short of the $1.6 billion the 
Department of Transportation has conservatively estimated will be 
needed over the next 20 years an issue we encourage the subcommittee to 
examine. Clearly, however, given the competing demands for funds within 
the transportation reauthorization bill it will be extremely difficult 
to achieve the overall funding level the administration has proposed, 
and we hope they will make this a litmus test issue as part of the 
reauthorization effort.
                       fee demonstration program
    The Park Service's Recreational Fee Demonstration Program has made 
important contributions to addressing a number of maintenance backlog 
needs in the parks, and we very much appreciate the leadership that 
Chairman Thomas and Senator Bingaman have shown on this issue. Although 
NPCA has taken no position on whether to expand that program to other 
agencies, we support your efforts to make the program permanent for the 
National Park Service. As you know, it is enormously important that the 
Park Service's fees be closely monitored and that the program 
supplement, not supplant federal dollars. Since it began in fiscal year 
1997 the program has already provided $584 million to the Park Service, 
with another estimated $250 million in FY 2003 and 2004. Public surveys 
have shown strong, but not unlimited, support for entrance and use 
fees. The fee program is not the solution to the backlog, but it is 
part of the solution.
                          operational funding
    The failure of the Park Service's annual operations budget to 
adequately meet the needs in the parks contributes to the backlog. 
While Congress has placed a great deal of focus and attention to the 
maintenance backlog, we must be equally if not more diligent in our 
efforts to address the operational shortfall in our parks. Shortfalls 
in annual operations funding create new backlog. In addition, 
discussions of the backlog frequently gravitate toward bricks-and-
mortar, but as the subcommittee knows, there is a critical backlog of 
unmet resource protection needs throughout the park system.
    NPCA estimates based on the Park Service's business plans from more 
than 50 parks that national parks suffer from an annual shortfall in 
operational funding of roughly 32 percent. Although Congress, with the 
help and involvement of this subcommittee, has moderately increased the 
operating budget for the Park Service, this funding has not kept pace 
with the needs of the parks. Furthermore, NPCA shares the concern 
recently raised by the House Interior Appropriations Committee in its 
report on the fiscal year 2004 Interior bill--the erosion of base 
program budgets. According to the House appropriators, the capacity of 
the Park Service to serve the American people is eroding because recent 
budgets have only partially funded costs of pay increases proposed by 
the administration and approved by Congress, and have not provided 
sufficient inflationary adjustments. The resulting necessity for the 
National Park Service operating account to absorb fixed costs during 
the last two years has been equivalent to a three percent reduction 
from 2001 program levels. The end result is an erosion, not an 
increase, in the operational resources available to the Park Service--a 
critical issue when attempting to reduce the backlog over the long 
term.
    The National Park Service has a tremendous responsibility as the 
caretaker for these national treasures, yet it does not have the tools 
it needs to do so fully. Homeland security demands have added a new 
dimension to the problem. Many parks throughout the system have shipped 
critical personnel elsewhere to augment homeland security demands at 
other sites, further straining resources that are already stretched to 
the limit. In addition, it is estimated to cost the National Park 
Service $63,000 per day every time the Department of Homeland Security 
issues an orange alert. Each park has to bear the impact of these 
costs, making an austere budget climate even more grim. Across the 
system, the impact of these costs quickly adds up. Unfortunately, while 
the Park Service has faced increased costs due to homeland security 
needs, its budget has not increased correspondingly, nor is the Park 
Service eligible for funding under the Department of Homeland Security.
    While it is important to address the current facility maintenance 
and resource protection backlog needs in the parks, if we continue to 
provide insufficient operating funding for the parks, we will only be 
replacing existing backlogs with new ones.
                           personnel deficit
    The 2001 National Park System Advisory Board report, Rethinking the 
National Parks for the 21st Century, focused important attention on the 
institutional capacity of the Park Service to accomplish its evolving 
mission. According to the report, ``The Park Service must have the 
expertise to administer parks as educational resources, protect park 
resources in landscapes that are increasingly altered by human 
activity, and fashion broad collaborative relationships with academia, 
the private sector, state, local, and other federal agencies. It must 
continue to provide high quality visitor experiences, and present 
America's unfolding story in a manner that connects with the nation's 
increasingly diverse population.''
    The employees of the National Park Service, from rangers to 
maintenance workers, do a remarkable job with the resources available 
to them. They are committed individuals for whom the Park Service and 
public service are a way of life. Unfortunately, there aren't enough of 
them to meet the significant, evolving challenges that our national 
parks face.
    Many of us remember how many campground programs, ranger walks, and 
other casual encounters we used to have with park rangers, 
interpreters, and other park service personnel when we were young. 
Unfortunately, our children have fewer opportunities, both because 
there are so many more visitors to the national parks today than there 
were 20 or 30 years ago, and because park service staffing has not kept 
pace with the need.
    At Death Valley National Park, for example, public education 
activities were cut by more than one-third in fiscal year 2002. The 
park can no longer afford a staff member dedicated to public education 
and outreach, including environmental education programs for school and 
community groups. Today there are 1837 full time equivalent (FTE) 
interpreters in the national parks and 765 FTE among the part time 
ranks. That means the park service has roughly 1 interpreter per 
100,000 park visitors. Although this is an admittedly crude measure of 
capacity, it illustrates the enormous challenge the Park Service faces 
in providing a quality experience to park visitors.
    The Park Service also faces other staffing challenges. Several 
regional directors will retire in the very near future. Many parks have 
shortages in critical positions. For example, the number of 
commissioned law enforcement rangers has actually decreased since 1980. 
According to the Federal Law Enforcement Training Center, there 
were1841 commissioned permanent rangers and 616 seasonal rangers in 
1980. But by 2001 the number of permanent commissioned rangers had 
dropped 16.4 percent, to 1539, and the number of seasonals had dropped 
23.9 percent, to 147. During the same time, visitation to the parks has 
increased by nearly 60 million people and the number of units has 
increased by 59.
    The national parks provide incredible opportunities to connect all 
Americans, but especially youth with our collective history and to 
train the next generation of scientists. As the Advisory Board report 
points out, education that links classroom learning with field 
experiences produces better results. When students, or adults, for that 
matter, visit a Gettysburg, the battle and its historical importance 
comes to life. When they visit the Adams Historic Site, figures from 
their past become more tangible than when read about in textbooks. When 
students participate in a paleontological dig at Petrified Forest or 
hear a wolf howl at Yellowstone, these remarkable places and their 
value and meaning come to life.
    Unfortunately, many parks must turn away requests from schools for 
on-site education programs. At Gettysburg, the Park Service must hold a 
lottery for its on-site education programs, denying one out of four 
schools. Petrified Forest is unable to accommodate many requests from 
local schools. At Yellowstone, lack of staff requires the park to turn 
away nearly 60 percent of all school groups wishing to participate in a 
week-long, hands-on educational program. Joshua Tree had to turn down 
approximately 75 requests for school programs in FY 2001. And these 
parks are not alone.
    The business plans the Park Service has been producing at many 
national park units provide important information about how well 
existing resources enable park managers and staff to accomplish their 
mission. The Park Service deserves credit for continuing to use and 
improve the business planning process. The Business Plan Initiative 
helps strengthen financial management capabilities at parks and 
facilitate meaningful dialogue about park needs. Every year the Park 
Service's business plans get stronger, and the evolution of the program 
promises to continue delivering important benefits in the coming years.
    The plans examine funding and staffing trends, describe the history 
and growth of the parks, provide functional analyses and identify 
strategic priorities and ways to more efficiently use scarce financial 
resources for the benefit of park resources and visitors. They 
typically examine five program areas: (1) resource management; (2) 
visitor experience and enjoyment; (3) facility operations; (4) 
maintenance; and (5) management and administration.
    Two of the most important functional areas throughout the national 
parks are resource protection and visitor experience and enjoyment, 
both of which are generally also the most underfunded. Resource 
protection programs generally include collections, historic structures, 
and natural resources. Visitor experience programs generally include 
interpretation, education and visitor safety.
    The fiscal year 2001 business plan for Gettysburg National Military 
Park and Eisenhower National Historic Site shows a resource protection 
deficit of $907,000 and 10.73 FTE on a total resource protection budget 
of $2.48 million and 42.5 FTE (full time equivalent positions). The 
shortfall is particularly acute in the cultural resource management 
program, therefore impacting the preservation and protection of 
historic structures, collections, and landscapes. Visitor experience 
and enjoyment programs at the two units are $1.3 million and 13.3 FTE 
short of the need, compared with total available funding of $1.5 
million and 32.4 FTE. According to the plan, underfunding in this area 
means the parks have too few interpretive rangers to meet the demand of 
visitors and schools. Underfunding also means too few staff to orient 
visitors at the visitor center and insufficient operating funds to 
properly maintain, monitor and inspect the structural fire suppression 
system.
    According to its business plan, Bandalier National Monument in 2000 
had a shortfall of $954,504 and 20 FTE for resource management compared 
to available funding of $1.48 million and 22.1 FTE. The visitor 
experience budget was short $461,650 and 9 FTE compared with available 
funding of $646,066 and 12.8 FTE. Consequently, the park's primary 
challenge in this area is insufficient staffing for interpretation. In 
the case of Bandalier, the challenges the park faces in these two areas 
is joined by a management and administration funding shortfall of 
$632,403 and 7.7 FTE compared to a management budget of $487,270 and 
7.9 FTE.
    The chart below shows the business plan findings for a reasonably 
illustrative group of parks, to provide the subcommittee with an idea 
for how funding and personnel shortfalls are typically distributed 
within the parks. In highlighting these parks, we in no way wish to 
signal that they require more or less attention than others. Rather, 
they all produced quality business plans that can help the committee 
understand the resource and staffing challenges that face virtually all 
units of the national park system.

                                  FUNDING AND STAFFING NEEDS SELECT PARK UNITS
----------------------------------------------------------------------------------------------------------------
                                                      Total
                 Park & Program                    Available $      Total      Unfunded Need  Park FTE     FTE
                                                       \1\       Required $                              Deficit
----------------------------------------------------------------------------------------------------------------
Gettysburg (FY 2001)
  --Resource Protection.........................   $2,479,466    $3,386,465      ($907,019)     42.46   (10.73)
  --Visitor Experience..........................   $1,515,120    $2,813,654    ($1,298,534)     32.42   (13.28)
  --Facility Operations.........................     $946,644    $1,494,375      ($547,731)     18.07    (4.70)
  --Maintenance.................................     $230,375      $422,860      ($192,485)      3.46    (4.20)
  --Management & admin..........................   $1,383,092    $1,997,816      ($614,724)     20.11    (4.08)
----------------------------------------------------------------------------------------------------------------
Bandalier (FY 2000)
  --Resource Protection.........................   $1,484,621    $2,439,125      ($954,504)     42.11   (20.07)
  --Visitor Experience..........................     $646,044    $1,107,717      ($461,650)     21.83    (8.99)
  --Facility Operations.........................     $469,597      $837,720      ($368,123)     13.11    (6.27)
  --Maintenance.................................   $1,057,241    $1,406,324      ($349,083)      8.60    (1.05)
  --Management & admin..........................     $487,270    $1,119,672      ($632,403)     15.57    (7.66)
----------------------------------------------------------------------------------------------------------------
Acadia (FY 2000)
  --Resource Protection.........................     $931,501    $2,609,995    ($1,678,494)      42.2    (25.7)
  --Visitor Experience..........................   $1,690,769    $2,952,904    ($1,262,134)      65.9    (24.6)
  --Facility Operations.........................   $1,765,259    $2,829,305    ($1,064,046)      49.8    (18.0)
  --Maintenance.................................   $1,195,498    $3,254,330    ($2,058,832)      35.7    (20.2)
  --Management & admin..........................     $956,374    $2,235,184    ($1,278,810)      53.0    (20.9)
----------------------------------------------------------------------------------------------------------------
Joshua Tree (FY 2001)
  --Resource Protection.........................   $1,242,993    $2,012,095      ($769,102)      20.3    (11.7)
  --Visitor Experience..........................   $1,499,907    $2,283,081      ($783,175)     33.81     (12.7
  --Facility Operations.........................   $1,140,766    $1,594,449      ($453,683)     15.58     (4.6)
  --Maintenance.................................   $1,116,011    $1,310,011      ($194,000)     10.65     (4.6)
  --Management & admin..........................     $990,167    $1,436,010      ($445,843)      13.1     (4.2)
----------------------------------------------------------------------------------------------------------------
Fort Stanwix (FY 2001) \2\
  --Resource Protection.........................      $72,951      $337,500   ($264,549) \2\      0.7   (3.1) \2
                                                                                                              \
  --Visitor Experience..........................     $213,992      $387,406   ($173,418) \2\     5.16   (3.0) \2
                                                                                                              \
  --Facility Operations.........................     $185,790      $294,803   ($109,013) \2\     3.25   (1.9) \2
                                                                                                              \
  --Maintenance.................................      $56,141       $56,315      ($174) \2\      0.21   (0.0) \2
                                                                                                              \
  --Management & admin..........................     $277,272      $472,926   ($195,654) \2\      5.1   (1.7) \2
                                                                                                              \
----------------------------------------------------------------------------------------------------------------
\1\ Includes appropriated and non-appropriated funds.
\2\ Fort Stanwix received a $570,000 appropriated base budget increase in FY 2002, nearly eliminating the entire
  47 percent shortfall. The Fort is nearly fully funded.

    Importantly, business plans are a tool that parks put to use. For 
each of the parks described above, the plans identified needs that park 
managers are working to address. Their challenge, of course, is 
implementing creative programs to maximize available resources and 
finding the additional funds to truly meet the needs of their parks. 
They have challenging jobs, which they and their staff do very well.
    The chairman asked that we describe whether shortfalls in personnel 
and resources tend to be concentrated in certain regions, among 
different types of park unit, or tend to be specific to parks. The 
short answer is that we cannot yet be certain. However, our preliminary 
analysis suggests that most of the primary problems--particularly in 
interpretation (visitor experience) and resource preservation--are 
evenly distributed. Nor does there appear to be a significant 
difference between the national parks, historic parks, national 
monuments or other units. In general, the business plans developed with 
the Park Service have shown an overall shortfall ranging between 20 and 
40 percent, with a small number of parks like Fort Stanwix National 
Monument, which received sufficient funds in FY 2002 to eliminate 
virtually its entire shortfall and is instituting strategies identified 
in the business plan to address the remainder. An analysis of the 
business plans developed by the Park Service thus far indicates that 
funding and staffing challenges are relatively similar across the 
system. The budget functions that tend to have the most significant 
need generally include resource protection and visitor experience. 
Overall, the ubiquitous nature of these shortfalls illustrates the 
enormous challenge that continues to face the park service, and calls 
into serious question the administration's aggressive effort to 
outsource Park Service positions.
    Despite these challenges, modern technology presents incredible 
opportunities to bring the national parks closer to people who may be 
hundreds or even thousands of miles away--opportunities the Park 
Service works to provide through its Parks as Classrooms program. 
Volunteers provide enormous assistance to the parks through their 
dedication and devotion. In fiscal year 2002, 125,000 volunteers 
donated 4.5 million hours (equivalent to 2156 FTE) to the national 
parks. Since 1990, the number of volunteers in the national parks has 
increased by roughly 5 percent per year. But even though volunteers and 
technology provide invaluable tools to help protect the parks and even 
educate park visitors, they are not the entire solution.
    Efforts to significantly increase volunteerism in the parks will 
require that sufficient staff be made available to supervise them. 
Volunteers must be trained and guided, and park staff need to determine 
how to put them to use.
                            land acquisition
    Since Congress created it in 1964, the Land and Water Conservation 
Fund (LWCF) has been the principal federal source of funding to acquire 
new park and recreation lands. Similar to the Highway Trust Fund, the 
LWCF account was envisioned as the primary dedicated funding source for 
land conservation. Revenues generated principally from drilling on the 
outer continental shelf are supposed to be allocated to land management 
agencies for land acquisition and recreation. However, as the 
subcommittee is aware, Congress has not fully funded the LWCF to its 
authorized $900 million annually, despite trust fund revenues that far 
exceed expenditures. Through fiscal year 2001, the total amount that 
could have been appropriated over the years was $24.5 billion, but only 
$11.4 billion had been appropriated--less than half the authorized 
amount.
    To address this situation, in fiscal year 2001 Congress reached an 
historic agreement to significantly increase funding for the LWCF 
through a new Conservation Trust Fund. This groundbreaking bipartisan 
accomplishment was intended to protect America's conservation, 
recreation, wildlife, and historic resources. As members of the 
subcommittee are aware, this funding mechanism was created as a 
compromise during the debate surrounding the passage of the 
Conservation and Reinvestment Act (CARA). The Conservation Trust Fund 
was intended to provide a dedicated level of annual funding for LWCF 
and other conservation programs for fiscal years 2001-2006, for a total 
$12 billion during this period. Unfortunately, the Conservation Trust 
Fund was dramatically underfunded in fiscal year 2003, and appears to 
face similar shortfalls in the upcoming fiscal year.
    Expansions of and additions to the national park system are 
necessary. Clearly, expansions of the system have had an impact on the 
fiscal and personnel needs of the Park Service, but the extent to which 
they have diminished the resources available for other Park Service 
needs is unknowable. It is far from clear that the Park Service would 
have the same financial resources or support it has today if these 
expansions had not occurred.
    Until the rate of investment for the Park Service has increased to 
the point that is necessary to fulfill the Park Service's mission and 
purpose, the Park Service will have to struggle between competing 
priorities. NPCA strongly believes the operations budget should be a 
significant priority, but that we cannot turn a blind eye to once-in-a-
lifetime opportunities or newly emerging threats to the very places 
we're trying to preserve for future generations. If a park is 
endangered and the acquisition of an in holding or adjacent land will 
help protect it, that acquisition should become a priority.
    Importantly, in holdings frequently create management burdens for 
national park personnel. In some cases the acquisition of an in holding 
or adjacent land may actually reduce those burdens and enable personnel 
to focus on other needs. As the members of the subcommittee know, 
owners of ecologically, culturally or historically sensitive land 
within and adjacent to parks periodically decide to sell or develop 
those lands. At times, such situations pose direct threats to the 
enjoyment of park visitors and the well being of the parks, themselves. 
The Park Service must have the ability to acquire these lands when 
necessary to protect the integrity of a given park.
    For example, Petrified Forest National Park is known worldwide as 
the premier window into Triassic era paleontology, but only 6 miles of 
the 22-mile long famous, fossil-rich Chinle escarpment are within the 
park. This is a priceless, rare resource that should be protected as 
part of the park, particularly with the primary landowners anxious to 
sell their land and with strong support from the local communities. The 
park holds a time capsule of untapped scientific knowledge that can 
help us unravel some of the thorniest environmental questions of our 
time.
    Among the select few land acquisition needs for which the 
administration requested funds in its fiscal year 2004 budget request 
are sensitive lands in Big Thicket National Preserve and at Valley 
Forge National Historical Park. Land acquisition at Big Thicket is 
essential to prevent timbering on non-federal lands at the preserve 
that would endanger the fragile ecosystem of the Big Thicket area. 
Timber companies are divesting themselves of 1.5 million acres in the 
surrounding area. Proposed development at Valley Forge National 
Historical Park threatens an area that once was occupied by the 
Continental Army during its encampment at Valley Forge in 1777-1778.
    And as the result of the Chairman's initiative, the National Park 
Service recently acquired 1,406 acres of state lands and mineral 
interests within the boundary of Grand Teton National Park. In holdings 
like those in Grand Teton exist throughout the National Park System, 
and their acquisition by the parks when owners wish to sell them is 
generally in the strong interest of long-term park preservation.
                    serving the new face of america
    History is not static, but is made every day. The national park 
system must evolve to remain the ``best idea America ever had'' and to 
serve the rapidly changing population of our nation. Unfortunately, 
America's ``ethnic minorities'' still remain largely absent from our 
parks as visitors, employees, contractors, subjects of interpretation 
and political champions. In 2003, the year that confirmed Hispanics as 
the largest growing minority in the country, not one of the 388 units 
that currently make up the national park system honors the legacy of an 
individual contemporary Latino. The same can be said for Asian 
Americans and American Indians. For its failure to embrace diversity, 
this great American idea is at risk of becoming largely irrelevant to 
half the population at a time when our national parks need the broadest 
possible constituency to ensure their preservation unimpaired for 
future generations.
    This worst-case scenario, however, need not come to pass. Surveys 
demonstrate that Asian, Latino, African American and American Indian 
people have a great regard for the natural wonders celebrated and 
preserved in large national parks such as Yosemite and Yellowstone. The 
Park Service, for its part, is one of the largest curators of Asian, 
Latino, Indian and African American history and culture. These existing 
links need to be reinforced and better publicized in order that these 
natural allies fully support and appreciate one another.
    Thoughtful and judicious expansion of the park system to include 
new units commemorating our diverse history and culture would provide 
an even greater opportunity to overcome the relevancy gap that exists 
between the Park Service and many people of color. The addition of 
sites commemorating the groundbreaking work of African American scholar 
Carter G. Woodson and labor rights activist Cesar E. Chavez would be an 
excellent first step toward better engaging people of color as national 
park advocates. It's also the right thing to do if we are truly 
interested in having a national park system that accurately and 
adequately reflects the many faces of America.
    Some argue that no new national parks should be added until the 
backlog maintenance concerns currently plaguing the system have been 
addressed. Furthermore, some have stated the cost of these outstanding 
concerns is so great that resolving them will prevent us from funding 
any new units for the national system. The truth is that, over time, 
adequate funding would enable the Park Service to handle its backlog 
maintenance and operational needs, serve park visitors, and make 
prudent additions to the system that celebrate the cultural diversity 
and honor our common heritage as Americans. In a time where everyone, 
from NASCAR to Major League Baseball to the Elk's Club, is embracing 
diversity as way to remain socially relevant, political effective, and 
economically viable, we cannot afford to tell 47 percent of the 
population there's no more room in the national park system for your 
heroes and leaders. Diversity is the strength of our nation and should 
also be a strength of our national park system.
                               conclusion
    Thank you for focusing attention on this important issue today. 
When national parks are created, most Americans would like to assume 
they are protected. As you know, the park system faces constant 
pressure and a significant struggle for resources. NPCA is pleased to 
be of assistance to the subcommittee as you examine how best to address 
these challenges and protect our beloved national parks for future 
generations.

    Senator Thomas. Thank you, and thanks to all of you for 
being here.
    Mr. Dillinger, you work in other areas other than parks. 
How does the maintenance backlog in parks compare to other 
State or Federal agencies or similar kinds of activities?
    Mr. Dillinger. I have yet to encounter a public agency that 
didn't have a backlog. What I think you will find is that the 
right comparative metric measurement, if you will, that Mr. 
Murphy offered, is that facility condition index. And what you 
find in testimony from our National Wildlife Refuge, is that 
tends to run between .1 and .3 in many of our public agencies, 
and it's left relatively consistent, but it exists out there 
across those. The Park Service itself has some unique 
challenges in both remoteness and the age of their assets and 
their infrastructure, and that caused some complications for 
them whereas some of the other public agencies that might have 
assets that were in the 30-year range instead of the 80-year 
range.
    Senator Thomas. So you're suggesting that a percentage of 
the operating budget, whatever is available, be set aside for 
the maintenance of facilities?
    Mr. Dillinger. I think the key is, and Mr. Kiernan said as 
well, if we don't adequately fund the annual maintenance, that 
rolls over into maintenance backlog. And so if we focus our 
attention just on maintenance backlog, we're focusing on an 
event that will continue to pile up due to inadequate annual 
funding, and those agencies that have public sector agencies, 
private sector as well, have started to focus on spending the 
right money up front tends to naturally draw down their 
backlog. But you will find that there is always some 
maintenance backlog and it is perhaps never appropriate to 
believe that you can entirely eliminate it. There is a new 
piece always occurring tomorrow, and the idea is to keep it 
below that range that Mr. Murphy mentioned, of 10 percent of 
the total value.
    Senator Thomas. I'm sure that more money is always, of 
course, the solution to everything, and you can come with us as 
we go about our business, and you will find that everyone we 
talk to has a need for more money, and I don't disagree with 
that. However, there also has to be some attention given to how 
you better spend the money you have, and of course that's 
probably what we're doing here.
    Mr. Cornelssen, concessions are a little different, aren't 
they? The maintenance of a concession has to do, I suppose, 
with the arrangement made on the concessioners.
    Mr. Cornelssen. Yes, sir. The challenge here is we're not 
doing it ourself, we have to get the private sector to do it on 
our behalf, that is, on the Park Service's behalf, so we have 
to specify some fairly clear standards and operating 
guidelines.
    Senator Thomas. But that kind of goes into the leasing 
arrangement, doesn't it?
    Mr. Cornelssen. Yes, sir.
    Senator Thomas. And there ought to be an opportunity to 
make enough money to maintain the facilities and then to ensure 
that they are maintained, which, do you think that's done 
generally in the parks?
    Mr. Cornelssen. We are certainly doing it now. The approach 
that we're taking on the large contracts, what we call the big 
50, is we make sure there is adequate funding going back first 
and foremost to the assets, but that there is also a fair 
return to the concessioners.
    Senator Thomas. You mentioned that all of the facilities 
actually belong to the park. That's sort of a little hard to--
now Yellowstone, for example, the assets do belong to the park, 
they don't belong to the hospitality group, but the others, 
although they're under lease and control, they actually are 
paid for the facilities if they don't continue the concession. 
Is that true?
    Mr. Cornelssen. Yes, sir. The reason I made that 
distinction is that the Government does and needs to recognize 
that these are government, these are assets that are titled to 
the U.S. Government, so whether there is possessory interest or 
not, the Government has a responsibility for these assets.
    Senator Thomas. Mr. Kiernan, there are other--you know, in 
part of your last statement, where of course the parks need to 
continue to grow, there are also other ways of maintaining 
facilities, are there not, such as State parks and other kinds 
of things?
    Mr. Kiernan. Absolutely. There is, to use the 
administration's coined phrase, a network of park systems 
throughout this country, and obviously it is the local, State 
and national park systems that in aggregate provide some of the 
recreation, but also resource protection needs of this country. 
That being said, the National Park System represents the 
superlative examples of the treasures of this country. The 
Flight 93 Memorial, obviously from September 11, is one example 
of a number that we feel should be recognized.
    Senator Thomas. No question. We do need to think a little 
bit sometimes about the standards that decide which of these 
categories they fall into, because there are some pretty nice 
things that are in State parks and so on.
    Somebody mentioned earlier that during this last several 
years there has been a $2.9 billion reduction in backlog. You 
don't seem to agree with that.
    Mr. Kiernan. We agree with the administration's calculation 
that they have supplied, with Congress, $2.9 billion, but at 
the beginning of this administration, they were funding those 
accounts at roughly what would have been $2.5 billion, so the 
administration has proposed an additional, we calculate, $371 
million. That's good and we support that, but clearly, that 
additional incremental funding of $371 million only makes a 
very small dent in reducing the $4.9 billion log. That's why, 
as we understand it from the Department's numbers, the backlog 
as they calculated this past January, is between $4.1 and $6.8 
billion, the backlog is still up in that range, it is not being 
reduced because there has not been significant additional 
funding the backlog or significant increase in the operating 
budget for the parks.
    Senator Thomas. I don't quite understand. I think you said 
reduced it by 3. something, the backlog?
    Mr. Kiernan. They have only reduced it $371 million.
    Senator Thomas. I'm sorry, I misunderstood you. I thought 
you were talking $3.7 billion, which I thought was pretty 
significant.
    Mr. Kiernan. Right, $371 million.
    Senator Thomas. All right, thank you.
    Senator.
    Senator Akaka. Mr. Cornelssen, you stated in your 
testimony, developing new concession contracts, that you are 
able to structure plans to address any maintenance backlog with 
respect to the concession facilities involved, as well as 
ensure proper ongoing maintenance. While this is encouraging, 
doesn't it mean a trade-off with other funding needs? The funds 
spent by concessioners to address backlog maintenance means 
either a lower franchise fee or other foregone use of the 
revenue that we're contemplating in the concessions we farm 
out.
    Mr. Cornelssen. That's a good question, sir. I mean, I 
guess the way we do it is I guess, don't kill the goose that 
laid the golden egg concept. In other words, first and 
foremost, we have to make sure the money goes back into the 
assets to ensure that those assets are in good condition, the 
visitors have a good experience, they are willing to continue 
to pay for that experience. So that's a high priority for the 
investment. I do believe when the Concessions Reform Act was 
passed in '98, a lot of people viewed it as potentially a 
windfall of all kinds of extra money, but what we're seeing as 
we view these contract by contract, there is additional returns 
coming back, but a lot of the money does need to go back into 
the assets at the park level.
    Senator Akaka. Mr. Kiernan, you stated that NPCA believes 
only, and let me make sure of the figure, $371 million in new 
money has been available in recent years. Given the current 
fiscal climate and the intense competition for discretionary 
funds in the appropriations process, my question to you is 
where do you propose that we find the additional money that 
would be needed to reduce the backlog?
    Mr. Kiernan. A wonderful question, Senator, and a difficult 
one. I would respond in the following way: The National Park 
System tells truly the American story and the values that we 
stand for need to be protected, need to be communicated, need 
to be reinforced through our National Park Service. Now is the 
time when we are making investments, whether it's in Homeland 
Security, foreign affairs, the investment in our National Park 
Service is absolutely part of that strategy. We need to be 
investing in our parks because they are, they represent the 
best and finest of this country, and also they represent the 
times and places where this country has made mistakes. We need 
to take care of these places and learn from them. These need to 
be the highest, or some of the highest funding priorities of 
this country at this time. So, that's not a specific answer to 
your question, but we are calling for a $600 million funding 
increase in the operating budget of the parks and that is a 
number that seems in the realm of the doable in the Federal 
budget, sir.
    Senator Akaka. Thank you. In my opening statement, I 
mentioned my concern that as important as this issue is, it's 
not only the concern for the Park Service or even the highest 
priority, there are many other parts there. Given the scarce 
resources available, what areas does NPCA think are the most 
important, and what should receive priority in funding?
    Mr. Kiernan. I believe it's easy for Congress and the 
administration to focus on those aspects of the park that are 
the superficial, I don't mean that as a criticism, but the 
visible, and so the maintenance backlog, the condition of roads 
and the buildings is something that's quite visible and is 
receiving attention. I think it is a lot of the invisible 
behind the scenes, the lack of scientific understanding of the 
natural resource management challenges in the parks, as I 
mentioned in my testimony, needs significant increases in 
funding. So I would answer it by saying natural resource 
protection, cultural resource protection, protecting those 
fourth elements of the parks for which they were founded should 
be the highest priority.
    I would also mention, if I may, that in the last 3 years 
the total Park Service budget, backlog funding, operating 
funding, has only increased on average 1 percent over the last 
3 years. In the end of the 1990's, it was increasing an average 
rate of 9 percent, so the rate of increase of our total 
National Park Service funding has dramatically dropped and I 
think this will lead to additional future problems both on the 
operating budget and in the backlog.
    Senator Akaka. Thank you for your response. I just want to 
say that there is an additional concern too, in terms of 
availability of personnel and resources for these public 
assets. So, I thank you all very much for your comments.
    Senator Thomas. Thank you. We're about to wind up here, 
guys. I would like to have you say in about this length of 
time, these are the three things I think are most important 
that we do right now to deal with parks and this backlog.
    In the meantime, Tom, I have to say that you're publishing 
here as saying the administration has a D minus for its 
operations in the parks, and I was a little surprised at that. 
It's a tough issue, but I think there are some pretty good 
activities that have carried on.
    Mr. Kiernan. Thank you, sir. We did try in that assessment 
to highlight those park policies and efforts of the 
administration that we do think are positive, we are trying to 
point out the good things, some of which were mentioned this 
morning.
    Senator Thomas. Mr. Dillinger, what are the three things 
you think we ought to do?
    Mr. Dillinger. Number one would be to, understanding the 
financial constraints, but nonetheless understand the 
appropriate level of maintenance dollars that could be spent. 
Number two, complete the effort that Park Service currently has 
underway to develop their facilities management system but 
expand it to include the maintenance requirements. The third 
issue is to get well trained people in the field, continue to 
do that, not that people there are bad, just that there is a 
continued departure of quality folks as the work force ages, 
and we need to train new folks, new stewards to be in the 
field.
    Senator Thomas. Thank you, sir.
    Mr. Cornelssen. I would echo some of what Eric said. First, 
investing in people, both internally through training programs 
as well as using external resources as necessary. Secondly, 
putting together a good plan; I know that's tossed around a 
lot, but we believe in it, we believe you have to have a plan. 
Third, I guess I would call it financial discipline, which I 
think gets to your point, Mr. Chairman, which is understanding 
the resources that you have, and how you work with those 
resources to leverage them and maintain a tight financial 
discipline.
    Senator Thomas. Thank you.
    Mr. Kiernan.
    Mr. Kiernan. We would recommend continuing to increase the 
natural resources challenge program and the funding for that. 
That has seen significant improvement of science and management 
in the national parks. Secondly would be to continue the 
administration's work to roll out business plans to all the 
parks as a means of understanding the operating challenges and 
coming forward with recommendations to fulfill the operating 
challenges. And thirdly, and somewhat as a result of those two 
things, significantly increasing the operating budget of the 
Park Service, because we think that will both better protect 
the resources and deal with backlog.
    Senator Thomas. Thank you, gentlemen. We appreciate your 
input and appreciate your support for the parks. The committee 
is adjourned.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              


               Responses to Questions From the Committee

    Question 1. What issues did GAO identify that contribute to 
the maintenance backlog?
    Answer. The body of work that we have done throughout the 
national park system suggests that it is a combination of 
things. These include aging facilities and infrastructure, 
budgets not keeping pace with the growth of the system, and the 
lack of sustained attention and commitment by Park Service 
management to properly address the issue.
    Question 2. Did GAO identify any administrative or 
management practices within the National Park Service that 
impede or prolong action toward correcting the maintenance 
backlog?
    Answer. Yes, the lack of a sustained commitment to properly 
address its need to better manage its maintenance backlog, 
including getting a better understanding of the condition of 
its facilities and how much it will cost to maintain them. GAO, 
Interior's Office of Inspector General, and others have pointed 
this out for decades. While the current facility management 
initiatives within the agency appear promising, it will take 
time to fully implement them. Agency management will have to 
keep focused on seeing the initiatives through--it will require 
the kind of sustained commitment that the agency has not 
demonstrated in the past.
    Question 3. How much do you think the maintenance backlog 
might ultimately cost and how long might it take to correct?
    Answer. Right now, the Park Service has no reliable, 
system-wide data on the condition of its facilities or the size 
of the backlog to properly maintain them. Until this is known, 
we would only be guessing about the size of the problem and how 
tong it might take to correct it.
    Question 4. What advice can you offer the Park Service 
regarding the maintenance backlog?
    Answer. After decades of discussion and attempts to better 
manage the maintenance backlog, the Park Service is now in the 
process of implementing a new facility management process that 
appears very promising. However, it is going to take years to 
fully and properly implement this process so that all of its 
benefits can be realized--including getting more accurate and 
reliable data on the condition of its assets and the size of 
the maintenance backlog. Our advice to agency managers would be 
to stay focused on the effective implementation of its current 
facility management initiative and give it the sustained effort 
and commitment to see it through.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

         Statement of the Association of National Park Rangers
    Chairman Thomas and Members of the National Parks Subcommittee: We 
are honored and pleased to have the opportunity to provide this 
statement for the record.
    The Association of National Park Rangers (ANPR) is an organization 
created to communicate for, about, and with park rangers; to promote 
and enhance the park ranger profession and its spirit; and to support 
the management and perpetuation of the National Park Service and 
System. In meeting these purposes, ANPR provides education and other 
training to develop and improve the knowledge and skills of park 
rangers and those interested in the profession; provides a forum for 
discussion of common concerns of park rangers; and provides information 
to the public. Our membership--approximately 1,000 National Park 
Service employees--is comprised of individuals who are entrusted with 
and committed to the care, study, explanation, and protection of those 
natural, cultural, and recreational resources included in the National 
Park System, as well as of individuals who support these efforts.
    We would like to begin by thanking the Subcommittee for holding 
this hearing and examining issues which we believe should be of 
significant concern to policy makers and to the American public.
    The American National Park System is a worldwide model. Much 
emulated, and still unrivaled, it is at once a diverse and amazing 
collection of beautiful natural resources and monuments, an enriching 
source of learning about American history and culture, as well as a 
source of recreation and enjoyment for more than 400 million visitors 
each year. Yet, this amazing system will not endure without proper 
care. And that is the role of the National Park Service. Drawn from its 
enabling statute, the Organic Act of 1916, the mission of the Service 
is--

          . . . to promote and regulate the use of the . . . national 
        parks . . . which purpose is to conserve the scenery and the 
        natural and historic objects and the wild life therein and to 
        provide for the enjoyment of the same in such manner and by 
        such means as will leave them unimpaired for the enjoyment of 
        future generations.

    Thus, the vitality and perpetuation of the System is very dependent 
upon a properly staffed and skilled Service.
                           personnel deficits
    The National Park Service is experiencing shortages in virtually 
all personnel position types--i.e., law enforcement commissioned 
rangers, interpretive rangers, administrative support, resource 
management, and maintenance workers. For example, according to the 
Federal Law Enforcement Training Center, between 1980 and 2001, the 
number of permanent law enforcement commissioned rangers dropped from 
1,841 to 1,539 (a reduction of 302 or 16.4%) and the number of seasonal 
law enforcement commissioned rangers fell from 616 to 469 (a reduction 
of 147 or 23.9%). Yet, during this same period, the number of park 
units increased by more than 62, park acreage increased from 77 million 
to 84.5 million, and park visitation increased from approximately 300 
million to more than 400 million persons.
    Similar data for other position types are not available, but 
service-wide anecdotal information supports the contention that we have 
insufficient numbers of--

  <bullet> interpreters to provide tours and programs to more than a 
        small percentage of visitors;
  <bullet> resource managers to perform inventories, and to monitor or 
        restore ecosystems to insure their perpetuation;
  <bullet> maintenance workers to keep trails, signs, historic 
        structures, and other resource-related facilities in safe and 
        useable condition; and
  <bullet> support personnel such as information technologists, 
        administrative clerks, and fee collectors to run the parks on a 
        consistent, sustained and professional basis.

    During the preceding 12 months, the Department of the Interior and 
the Service have developed a variety of law enforcement reforms. This 
resulted in a number of NPS directives to the field, one of which was 
to give the filling of law enforcement positions the highest priority.
    In light of the aforementioned data, this is reasonable, 
appropriate and in general strongly supported by ANPR. At the same 
time, retirements, transfers, changing park needs, and effects of 
recent internal reorganizations also have left some parks with very 
critical shortages in other types of positions. ANPR therefore strongly 
supports preserving the discretion of park superintendents to establish 
local personnel priorities consistent with documented strategic, 
business, and safety needs.
    A particular personnel issue that greatly concerns ANPR is the 
prospective retirement of several NPS regional directors. We feel that 
it is mission critical for their replacements to be veteran NPS 
employees. Their regional duties, as well as their participation on the 
Director's National Leadership Council, require extensive knowledge of 
Park Service history, culture, and operational issues. Given the many 
challenges presently facing the national parks and the Service, it 
would be most unfortunate to have any of those positions filled by 
individuals with little or no Park Service experience.
    We offer two final, general points on NPS personnel. The first is 
that any discussion of personnel must be viewed from the context and 
effect of operational budgets. The Operation of National Park Service 
(ONPS) budget, adjusted for current dollars, has dropped about 20 
percent in the past 25 years. Consequently, parks are operating at 98 
percent and higher fixed costs (personnel, utilities, etc.) and have 
been for 7-10 years. In some cases fixed costs exceed 100 percent of 
ONPS (in FY 2003, some parks are at 120+ percent fixed costs). In some 
cases, permanent salaries must be covered out of ``soft money.'' The 
common practice for dealing with this is what we call ``managing by 
lapse''--or leaving positions vacant for a year or more in order to 
have the funds to cover other essential costs. It should be noted that 
this practice generally has not worked in smaller parks, those with no 
turnover in staff, or those that have low (or no) project funds.
    The second point pertains to the unique nature of service in NPS. 
We frequently serve in remote locations and, while we all have job 
descriptions, our work is frequently as unpredictable as Mother Nature 
and human behavior. Thus, in emergency situations, park employees work 
as teams to see that whatever needs doing is done. These emergencies 
may involve severe weather, injured and/or lost visitors, wildfires, or 
simply ensuring that visitors are served as needed. The following story 
is told by a young employee from a Western park.

          As a GS-5 visitor use assistant, I am clearly at the bottom 
        of park staffing. Today, I treated a man for a nearly 
        unstoppable razor cut to his face, spoke to 3 groups of 330 
        plus people each, dealt with 5 different school groups visiting 
        the park, and will in one half hour, deliver a 45 minute talk 
        and walk of the park to over 120 people. This morning we were 
        lucky, thanks to the ``donation'' of two law enforcement 
        rangers from other parks, so we had law enforcement support. 
        The only other uniformed ranger was one really good experienced 
        GS-9. And that's how we intend to deal with nearly 1000 
        visitors and their questions and even their small emergencies. 
        Want more? How clear do we need to be that more uniformed 
        presence is needed? Our maintenance mart ended up playing 
        interpreter to two school groups out of lack of staff We had no 
        volunteers, interns or other help for the first 3 hours of the 
        day and this is typical.
                          maintenance backlog
    While there is little agreement on the size of the maintenance 
backlog, we are very concerned about the significant effect that it has 
on the operations of parks and, under the current level of funding, the 
inability of the Service to properly staff them. We see superintendents 
being forced to make Hobson's Choices--e.g., to keep an area or 
building open to the public because of its popularity, knowing that it 
could involve a safety risk, or closing the area or building and having 
to deal with irate visitors. These are difficult decisions to make. We 
see historic structures that are rapidly deteriorating. And we see how 
unfunded and pressing maintenance needs contribute to ``managing by 
lapse.''
                            land acquisition
    As employees entrusted with fulfillment of the NPS mission and the 
care of our Nation's heritage, we support completion of the system via 
timely accomplishment of goals and priorities established in park Land 
Protection Plans. For many years, the completion of land acquisitions 
has not been possible and this has had a significant impact on the 
ability of the Service and its employees to preserve, protect and 
promote enjoyment of lands that Congress has deemed nationally 
significant. The Federal government made these determinations and 
should follow through to properly fund adequate protection of these 
nationally significant lands. An excellent way of assessing where we 
stand in meeting this responsibility is to review the land protection 
measures developed by each park. To what degree are the parks able to 
achieve the goals associated with these measures? To the extent that 
these goals are prioritized, are the parks able to adequately address 
even their highest priorities?
    The effect of land acquisitions on the maintenance backlog and on 
the personnel deficit is obviously to increase them. We would be 
pleased if careful assessments were routinely conducted and acted upon 
in a timely manner--with adequate funding--to insure that this Nation's 
heritage is preserved and protected. The next generation of Americans 
should expect no less and certainly deserves as much.
    Thank you for the opportunity to submit this statement. We would be 
pleased to provide any other information that the Subcommittee needs.
                                 ______
                                 
                Statement of Andrew N. Todd, Chairman, 
                 National Park Hospitality Association
    Mr. Chairman, I am pleased to submit testimony for this oversight 
hearing on maintenance and land acquisition backlog in the national 
parks. As a chairman of the Board of Directors of the National Park 
Hospitality Association (``NPHA''), I represent an industry membership 
that is responsible for most of the visitor services provided by the 
private sector in our National Parks.
    The National Park Hospitality Association members strongly support 
full federal funding for the National Park Service budget for Fiscal 
Year 2004 which includes a request of $1 billion in deferred 
maintenance projects that will be funded through appropriations, 
recreational fees and road improvement funds contained in TEA 21. This 
level represents a 50 percent increase over FY 2003 levels and is a 
large but necessary request. The industry believes that it is important 
that federal funding levels are maintained and that relying on private 
sector sources for park operations income is insufficient for the long 
term well-being of the parks.
    NPHA strongly supports President Bush's commitment to continue the 
progress in reducing the maintenance backlog within five years and to 
providing ``good roads, safe trails, clean lakes and streams, and well-
kept campgrounds.''
    Interior Secretary Gale Norton and NPS Director Fran Mainella have 
just released a special report, National Park Service: Partnering and 
Managing for Excellence, on July 2, 2003 that highlights many of the 
National Parks Legacy Project and NPS efforts to handle the existing 
maintenance backlog and plans to prevent this from recurring.
    We would also like to commend the NPS accomplishments in reducing 
the $4.9 billion maintenance backlog identified in the 1998 General 
Accounting Office report by nearly $2.9 billion the since FY 2002 
through 900 separate repair and rehabilitation projects system wide. 
There are still over 800 maintenance backlog projects to be undertaken, 
as well as necessary park road projects in order to return the park 
roads to good condition.
    NPHA favors the continuation of the fee demo program and the 
concession franchise fee program which allows 80 percent of the gate 
entrance fees and other franchise fees generated by the park to remain 
for use in that park unit. These programs have provided much assistance 
in providing needed maintenance and improved visitor services directly 
to the parks.
    Key to this management effort is the National Park Service facility 
condition assessments program that allows the NPS to put into place a 
maintenance system to flag maintenance needs, and allows both the 
National Park Service and Congress to better manage these needs and 
prevents recurrence of deferred maintenance backlogs.
    The Facility Maintenance Software System (FMSS) is scheduled to be 
completed and the system will be in use as a work planning, costing, 
tracking, budgeting and prioritizing tool in the parks by the end of 
calendar year 2003. Ultimately, this computerized system will be the 
first time that the National Park Service will have a comprehensive 
inventory and baseline condition assessment of all 7,500 park 
facilities. We strongly support this initiative and believe it will be 
very helpful in planning, scheduling and prioritizing the maintenance 
of these park facilities.
    NPHA is seeing some very good work coming out in the recent 
prospectus releases due to the NPS' business partnership with 
PricewaterhouseCoopers, who is bringing a private sector vision into 
this process. NPHA members have worked actively with the National Park 
Service on the comprehensive condition assessment initiative that 
identifies deferred maintenance on concession facilities and 
establishes the ongoing maintenance requirements of the concession 
facilities. This information used in developing the prospectus and is 
very useful in assisting the concessioner in planning and scheduling of 
necessary improvements and budget forecasting.
    NPHA supports this committee's efforts to ensure that the park 
service has adequate, trained personnel to operate the park system and 
strongly supports full funding for the NPS operating account. Almost a 
billion dollars was requested for FY 2004 to fund the operations at 388 
park units. NPS has taken on a number of additional duties in 
patrolling the border as many border parks have seen an increase in 
traffic of undocumented aliens and illegal drug smuggling as a result 
of heightened security at borders outside the parks. It is important to 
the safety and security of the park visitors that the agency receive 
adequate funding to meet these new duties.
    NPHA supports the planned new Flight 93 National Memorial, but 
contends that the maintenance backlog should be retired before new 
lands and parks are acquired and added to the system.
    We commend this committee for its leadership of the national parks 
and look forward to continuing to work with you and your committee, Mr. 
Chairman.

                                    

      

</pre></body></html>
